<html>
<title> - RUSSIAN STRATEGY AND MILITARY OPERATIONS</title>
<body><pre>[Senate Hearing 114-314]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-314

                RUSSIAN STRATEGY AND MILITARY OPERATIONS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 8, 2015

                               __________

         Printed for the use of the Committee on Armed Services



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




        Available via the World Wide Web: http://www.fdsys.gov/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-922 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)

  









                            C O N T E N T S

                               __________

                            october 8, 2015

                                                                   Page

Russian Strategy and Military Operations.........................     1

Keane, General John M., USA (Ret.), Chairman, Institute for the 
  Study of War and Former Vice Chief of Staff of the Army........     5
Conley, Heather, Senior Vice President for Europe, Eurasia, and 
  the Arctic; Director, Europe Program, Center for Strategic and 
  International Studies..........................................    14
Sestanovich, Hon. Stephen, George F. Kennan Senior Fellow for 
  Russian and Eurasian Studies, Council on Foreign Relations, 
  Columbia University............................................    24
Jones, General James L., USMC (Ret.), Chairman, Brent Scowcroft 
  Center on International Security, Atlantic Council, and Former 
  National Security Advisor......................................    28

                                 (iii)
 
                RUSSIAN STRATEGY AND MILITARY OPERATIONS

                              ----------                              


                       THURSDAY, OCTOBER 8, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in Room 
SH 09216, Hart Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, 
Tillis, Sullivan, Lee, Reed, McCaskill, Manchin, Gillibrand, 
Blumenthal, Donnelly, Hirono, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Senator McCain. Well, good morning. The Senate Armed 
Services Committee meets this morning to receive testimony on 
Russian Strategy and Military Operations, obviously a pretty 
important time to have this discussion.
    I'd like to thank our distinguished panel of witnesses for 
appearing before us today: General Jack Keane, of the Institute 
for the Study of War; General James Jones, of the Atlantic 
Council; Ms. Heather Conley, of the Center for Strategic and 
International Studies; and Dr. Stephen Sestanovich, of the 
Council on Foreign Relations. A very distinguished panel.
    Last year, Vladimir Putin's invasion of Ukraine and 
annexation of Crimea forced a recognition, for anyone who is 
not yet convinced, that we're confronting a challenge that many 
had assumed was resigned to the history books, a strong 
militarily capable Russia that is hostile to our interests and 
our values, and seeks to challenge the international order that 
American leaders of both parties have sought to maintain since 
the end of World War II.
    Today, Russia continues to destabilize Ukraine and menace 
our NATO allies in Europe with aggressive military behavior. 
For more than a year, an overwhelming bipartisan majority in 
Congress, as well as many of the President's top advisors, have 
warned that failure to offer greater support to Ukraine, 
especially defensive lethal assistance, would send a message of 
weakness that would invite the very aggression we seek to 
avoid. Unfortunately, this is what has happened. As the old 
saying goes, Mr. Putin's appetite is growing with the eating.
    Now, in a profound echo of the Cold War, Russia has 
intervened militarily in Syria on behalf of the murderous 
regime of Bashar al-Assad. Just consider how historically 
unprecedented this is. In all of its Soviet and post-Soviet 
history, Russia never intervened overtly militarily beyond its 
so-called near abroad. Now Vladimir Putin is doing so, and it 
has become the latest disastrous turn in the Middle East as 
well as another humiliating setback for the United States.
    As in past crises, however, the White House is once again 
floundering. Just consider: A few weeks ago, the administration 
warned Russia not to send its forces to Syria. Russia did it 
anyway. The administration then tried to block Russia's access 
to airspace en route to Syria. It failed. The consequence? U.S. 
defense officials rushed into talks with Russia's military to, 
quote, ``deconflict'' in Syria. Our Secretary of State called 
Russia's actions an, quote, ``opportunity to cooperate'' 
because we share, quote, ``fundamental principles.'' And 
President Obama acquiesced to his first formal meeting in 2 
years with Vladimir Putin, undermining international efforts, 
post-Crimea, to isolate Russia, exactly as Putin desired. And 
how did Putin respond? By bombing U.S.-backed opposition groups 
in Syria.
    President Obama is fond of saying there is no military 
solution to this or any other crisis. This ignores the reality 
that there is a major military dimension to the problem. And 
it's getting worse each day. It also ignores history. Most 
civil wars actually do end when one side wins and the other 
side loses. That is Putin's military solution, and he is now 
imposing it with Russian airpower in an anti-American coalition 
of Syrian, Iranian, Hezbollah ground forces. We should expect 
Russian troops to take the field with them. We should also not 
be surprised if Putin expands his anti-American coalition's 
operations into Iraq, where they have already established an 
intelligence partnership with Baghdad.
    However this conflict ends, it must not involve Vladimir 
Putin shoring up his partners, crushing ours, destroying our 
remaining credibility in the Middle East, and restoring Russia 
as a major power in this vital region, as Putin wants. We 
cannot shy away from confronting Russia in Syria, as Putin 
expects. His intervention has raised the costs and risks of 
greater U.S. involvement in Syria, but it has not negated the 
steps we must take. Indeed, it has made them more necessary, 
not least because Putin's actions will influence every aspect 
of this conflict: the refugee crisis, the mass atrocities, and 
the growth of ISIL.
    As everyone from David Petraeus to Hillary Clinton has 
advocated, we must rally an international coalition to 
establish enclaves in Syria to protect civilians and our 
moderate partners, and do what is necessary to defend them. If 
Assad continues to barrel-bomb civilians, we should destroy his 
air force's ability to operate. And if Russia continues to 
attack our opposition partners, we must impose greater costs on 
Russia's interests; for example, by striking meaningful Syrian 
regime targets.
    But, we should not confine our response to Syria. We must 
look to impose costs on Russia more broadly, including the 
provision of arms to Ukraine, the increase of targeted 
sanctions, and steps to deepen Russia's international 
isolation.
    We must also recognize the growing challenge that Russia 
poses in other areas and domains. According to public reports, 
Russian actors are behind a growing and increasing blatant 
campaign of cyberattacks against the United States, including 
the recent attack on the Joint Staff at the Department of 
Defense. Along the eastern flank of NATO, Russia is moving back 
into old military bases it abandoned long ago and deploying 
growing numbers of its modernized military forces, especially 
anti-access and area-denial weapons designed specifically to 
counter the United States in asymmetric ways.
    Russia's challenge even extends to the Arctic region, where 
Russia is involved in a significant military buildup of its 
air, ground, and naval forces, and has recently conducted a 
series of massive military exercises.
    These are just some of the reasons why our military 
leaders, including the Chairman of the Joint Chiefs of Staff, 
have recently testified to this committee that Russia 
represents the greatest threat to the United--that the United 
States faces. Whether we agree with that assessment or not, it 
is a striking wake-up call about the threat Russia poses. And I 
believe it requires us to think far more seriously about an old 
mission that our defense establishment has focused less on in 
recent decades: deterrence.
    In response to the challenge that Russia poses in Europe 
and in the Middle East and in the Arctic, it is not that the 
United States has done nothing. The problem is, nothing we are 
doing appears to be deterring Russian aggression. None of us 
want a return to the Cold War, but we need to face the reality 
that we are dealing with a Russian ruler who wants exactly 
that. As such, we must revisit the question what it'll take to 
deter the conflict and aggression while confronting a 
revisionist Russia.
    We look forward to the thoughts and recommendations from 
our distinguished witnesses on these questions.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    Let me first welcome the witnesses, thank them not only for 
their testimony but for their service to the Nation over so 
many years and in so many ways.
    This morning, our hearing focuses on developments in 
Russian strategy and military operations which are causing 
fundamental shifts in the security environment, not only in 
Europe, but in the Middle East, the Arctic, and elsewhere. The 
United States and its allies are facing an increasingly 
aggressive and revanchist Russia and a Putin regime that is 
willing to use all tools at its disposal, including its 
military power, to achieve its goals.
    Putin's goals appear to be, first, regime survival in the 
face of Russia's economic, political, and social decline; 
second, securing Russia's periphery by pressuring its neighbors 
against integrating with the West; and third, exploiting 
opportunities to weaken Western unity by dividing member states 
within the EU and NATO against each other. Yet, Russia's 
provocative and dangerous aggression often appears 
opportunistic and potentially harmful for its long-term 
interests.
    Last month, I had the opportunity to visit the Ukraine, 
where the nascent democratic government in Kyiv is struggling 
to defend its sovereignty against aggression from Russia and 
Russian-backed separatists. Russia has demonstrated, in Crimea 
and in eastern Ukraine, its willingness to use military force 
to violate Ukraine's territorial integrity and intimidate its 
neighbor. It is clear that President Putin sees a functioning 
democratic westward-oriented Ukraine as a threat to his 
regime's survival domestically and to Russia's broader regional 
security strategy.
    Recently, Russia has shifted its tactics in Ukraine from an 
emphasis on territorial gains to hybrid warfare and proxy 
forces to an expansion of his activities aimed at destabilizing 
the Ukrainian government and economy. This shift in Russian 
tactics is a result of several factors, including the 
determination of the Ukrainian forces and people to resist 
Russian aggression, international sanctions that are proving 
costly to Russia, the difficulty of disguising casualties from 
the Russian people, which is engendering some opposition within 
Russia, and, most recently, a possible desire by President 
Putin to shift the focus away from Ukraine and toward the 
conflict in Syria. Russian military operations in the Donbas 
have been a proving ground for its hybrid warfare technologies, 
which continue to evolve with increasing sophistication.
    The United States needs to be firm in its support of 
Ukraine, right now, or else the United States and NATO will 
have a bigger problem in the future. If Ukraine does not 
weather the current crisis, then Russia's aggressive behavior 
will be repeated elsewhere, potentially threatening NATO 
members. The United States needs to act in concert with our 
allies to assist Ukraine. One immediate need is for the 
international community to press Russia not to support the 
illegitimate local elections called by the separatists which 
violate the specific terms of the Minsk agreement in Ukrainian 
law. The outcome of the local elections of the Donbas threaten 
to further undermine the prospects for negotiations as part of 
the Minsk peace process. I understand that just recently the 
elections in the conflict area have been postponed until 
February. The United States and its allies and partners must 
immediately agree on an approach that supports Ukrainian 
efforts to hold elections under Ukrainian law, pressures Russia 
to uphold the terms of the Minsk agreements, and makes clear 
that any separatist victors in sham elections will not be 
accepted in participants--as participants in future talks under 
Minsk.
    The United States and its partners should take other steps 
to counter Russian aggression in Ukraine, as well. Ukraine's 
need for defensive weapons, including counter-artillery radars 
and anti-tank weapons, remains critical. Other action to help 
Ukraine include expanding the training in Ukraine of units of 
the Ministry of Defense, training Ukrainian forces at 
facilities outside Ukraine on key defensive weapon systems 
should a decision to be made to transfer those systems, and 
exploring options for developing Ukraine's capability to 
produce domestically much needed weapons, such as anti-tank 
weapons and vehicles.
    In Syria, much as it did in Ukraine, Russia has hidden its 
true intentions, using the ruse of joining the fight against 
ISIL to provide a cover for Russia's military intervention to 
prop up the Assad regime. Russians' actions, however, 
increasingly expose their true objectives. Instead of focusing 
on targeting ISIL, Russian airstrikes have predominantly 
occurred in Homs and Hama, areas controlled by moderate Syrian 
forces challenging the Assad regime. And yesterday, it was 
reported that Russian ships in the Caspian Sea launched 
missiles against a coalition of Syrian opposition forces that 
does not include ISIL. Russia is providing broader enabling 
support to the Assad regime's forces against the moderate 
opposition.
    These Russian missile attacks and enabling support were 
apparently conducted in coordination with a new ground 
offensive by the Syrian army, Iran's terrorist proxy, 
Hezbollah, and other Iranian-affiliated forces. This alignment 
of terrorists and their state sponsors is alarming.
    Russia's open military intervention in a conflict well 
beyond its borders marks a significant departure from how 
Russia has operated in the past and suggests that President 
Putin may be attaching particular strategic importance to 
Russia's access to bases in the overall relationship with 
Syria. And I hope our witnesses will provide their assessment 
of the strategic significance of Russia's decision to deploy 
its military forces to Syria.
    Russia's unilateral and belligerent efforts are not helpful 
to the efforts of the unified coalition of 60-plus countries 
fighting ISIL and create a dangerous risk of unintended 
consequences. President Putin has chosen not to join the 
international anti-ISIL coalition; instead, Putin has chosen to 
align with Iran and Hezbollah to attack Syria and is seeking to 
end the brutality of the Assad regime and establish a better 
Syria. Russians' actions are likely to only prolong and further 
complicate this conflict. Russia appears to be seeking to keep 
Bashar Assad in office and maintain Syria as a client state. In 
addition, Russia, Iran, and Iraq have concluded an 
intelligence-sharing agreement, and Iraqi Prime Minister Abadi 
has suggested that Iraq would welcome Russian airstrikes 
against ISIL in Iraq, adding to the concerns over unintended 
consequences. Once again, the witnesses' perspective on these 
issues would be absolutely critical.
    Finally, Russia is staking a claim in the Arctic, expanding 
its military presence, including coastal defense in the north 
to be able to control movements to a northern passage. Again, 
this is another area where your comments would be appreciated.
    Thank you, Mr. Chairman.
    And thank the four witnesses.
    Senator McCain. Thank you.
    We'll begin with you, General Keane, since you're the 
oldest one here.
    [Laughter.]

   STATEMENT OF GENERAL JOHN M. KEANE, USA (RET.), CHAIRMAN, 
 INSTITUTE FOR THE STUDY OF WAR AND FORMER VICE CHIEF OF STAFF 
                          OF THE ARMY

    General Keane. Thank you, good morning. Chairman McCain, 
Ranking Member Reed, distinguished members of the committee. 
I'm honored to be back testifying before this great committee 
who means so much to our national defense and security.
    It's a privilege to be here with my panel colleagues, 
particularly General Jones, who I've served with in the 
Pentagon and have known for years.
    Please refer to the maps that you have at your seat, 
provided by the Institute of War, which I will reference in my 
remarks.
    As to Russian strategy and military operations in Syria, 
establishing an out-of-region airbase in Syria that is isolated 
from the heartland of Russia in a war zone is quite 
unprecedented, particularly for a non-expeditionary military. 
You can see, on the map labeled ``Russian Deployment to 
Syria,'' the air-bridges routes over Iran and Iraq, and a sea-
bridge route through the Black Sea.
    The airbase consists of combat aircraft, helicopters, 
drones, logistics, support infrastructure, and a battalion-plus 
of armor infantry, artillery, and air defense for protection of 
the base. Approximately 2,000 to 3,000 personnel make up the 
base, which also houses a joint operations center consisting of 
Russian, Syrian, Iranian, and Hezbollah military personnel, 
largely now for targeting.
    While one can only speculate about the reason for this 
brazen military aggression, some realities in Syria are 
insightful. Look at the map labeled ``Control of Terrain in 
Syria.'' As you can see, the regime control area, in orange, 
which is now only about 20 percent of Syria. Note the 
opposition control area to the north and south, in yellow, as 
the regime is quite confined. Particularly in the north, with 
the fall of Idlib Province recently, the opposition force is 
beginning to encroach on the Alawite coastal enclave in Latakia 
Province, which represents Assad's main political support. Not 
labeled on the map, in the gray zone, to the east of Homs and 
Damascus, in central Syria, ISIS seized Palmyra City, the famed 
ancient city, and a nearby regime airbase, opening up the east-
west transportation corridor from Homs to the Iraq border. 
Syria is Russia's foothold in the Middle East, and, as such, 
the Tartus Naval Base is a strategic asset. It seems apparent 
that Russia believed the Assad regime's survival was in a more 
precarious position and needed to be propped up. As such, if 
you look at the map labeled ``Russian Airstrikes,'' you can see 
the focus of the airstrikes are against the opposition forces 
threatening the regime from the north in Idlib, Hama, and Homs 
Province. The moderate opposition forces, many trained by the 
CIA, and Jabhat al-Nusra, an al-Qaeda affiliate, are the main 
focus with ISIS strikes at Raqqa and near Palmyra are far less 
significant. Russian cruise missiles were introduced yesterday, 
striking 11 targets in northern Syria, northwestern Syria, and 
northeastern Syria. The purpose, then, of the airstrikes are 
twofold. One is to stop the advance of the opposition forces 
threatening the regime. And, two, to begin to set conditions 
for a ground counteroffensive to retake lost territory, with 
the main effort in the north in southern Idlib and northern 
Hama Provinces. The Syrian army began limited ground operations 
yesterday in Idlib Province, obviously supported by Russian 
airpower. A supporting effort may also be launched to retake 
Palmyra and the military airbase if the regime can generate 
sufficient forces.
    Even more significant than Russia entering a civil war is 
their recent strategic alliance with Iran, which will impact 
every country in the region and further diminish U.S. influence 
and U.S. interests in the region. Russia has been leveraging 
this reality to their own advantage by entering into arms deals 
with Saudi Arabia, UAE, Kuwait, and Egypt. These countries 
purchasing Russian weapons are not primarily driven by the 
desire to have Russian equipment, but by the harsh reality of 
the changing geopolitical landscape, and their desire to have a 
relationship with Russia has leverage against their strategic 
enemy: Iran. Russia is also in preliminary discussions to build 
nuclear powerplants in Saudi Arabia, Jordan, Egypt, and 
Tunisia. The relationship with Iran and its proxies matters to 
Russia because it provides them greater influence in the Middle 
East while also acting as a strategic buffer against radical 
Islam, a threat which is of great concern to Russia.
    Secondly, Russian strategy and military operations in 
Ukraine and Europe. Putin has put Russia on a path to be a 
world power with global influence. Most historical world powers 
have strong economies and strong militaries. Russia--the former 
Soviet Union was never prosperous, but certainly had a very 
strong military. Putin was on a path to do just that again with 
his military when the economy tanked. He was able to modernize 
his nuclear weapons, but left him with a conventional military 
that is still no match to the United States and NATO. But, 
about a third of his military are good units with some select 
excellent capabilities. This is a land-centric force with good 
combat aircraft, bombers, and submarines, and a limited power-
projection navy with only one aircraft carrier.
    Russia's strategy in Europe, I think, is influenced by the 
Napoleonic and Nazi invasions and the strategic buffer that 
existed in Europe as part of the Warsaw Pact protecting the 
heartland of Russia for almost 50 years. These buffer countries 
are now a part of NATO, which Putin sees as a security risk.
    After Putin lost his political stooge, Yanukovych, who he 
thought would stop the Ukraine movement to the West, he 
immediately annexed Crimea, correctly believing the Europeans 
and Americans would be stunned into compliance, thus recovering 
at home from the embarrassment of Yanukovych's forced 
departure. Encouraged by their success, Putin moved on eastern 
Ukraine, introducing hybrid warfare, a combination of special 
operations forces and intelligence security officers to help 
create public unrest, then arm and organize that unrest into 
fighting units, and, when the host country army moves to put 
the movement down, bring in Russian-disguised conventional 
military to defeat the army.
    Russia's use of military force in Ukraine is very 
revealing, as it relies heavily on drones to detect Ukrainian 
military units, with target information relayed immediately to 
artillery batteries and, within a few minutes, massive 
artillery is landing on a target, some with thermobaric shells 
creating a fire incendiary on the unit which is quite 
devastating. As such, the separatists, supported by Russian 
military, have consolidated Luhansk and Donetsk Provinces, but 
denied the land bridge to Mariupol.
    The political is more significant, because the Kyiv 
government has given up on any formal economic or, certainly, 
military alignment with Europe or NATO. Putin wants the Kyiv to 
fail and be replaced by a more friendly Russian government. 
Putin will continue the pressure. And see the map labeled 
``Current Proposed Russian Bases'' with the two new permanent 
ground force bases that are under construction across from the 
Ukrainian border, the--obviously in Russia--and the airbase 
Putin has muscled into Belarus which is also now under 
construction.
    So, what are U.S. options? U.S. strategy should be to 
assure our allies and friends, deter Russian aggression, defeat 
ISIS, and, long term, as a part of a global alliance, defeat 
radical Islam. Putin believes that European and American 
leadership is weak. Putin is counting on the U.S. fear of 
escalation and fear of confrontation to stop any thought of 
retaliation. Historically, aggression unanswered has led to 
more aggression.
    As to Syria options, recognize the anti-ISIS strategy in 
Iraq and Syria is failing. We are certain to lose the war 
unless there is major and comprehensive change to build an 
effective and decisive ground force in Syria while removing 
restrictions on the air campaign to dramatically increase 
airstrike effectiveness. We need to continue the U.S. policy to 
force Assad from power, but let's be realistic. Understand that 
Russia, as Assad's protector, will now play the decisive role. 
Putin has begun a proxy war with the United States when Russian 
combat aircraft struck continuously moderate rebel forces 
trained by the Central Intelligence Agency. This was no 
accident. Targets were provided by the Syrian regime, and they 
were accurate. How can the United States stand by and do 
nothing?
    United States military should have been given the mission 
to retaliate. Options likely to be considered, among many 
others: crater the al-Assad runway, establish free zones that 
are, essentially, no-bomb zones as sanctuaries for refugees and 
U.S.-backed opposition groups, strike Assad's helicopter fleet 
that is barrel-bombing its own people, just to name a few.
    Also, advise Russia that the United States and the 
coalition will conduct air operations anytime, anywhere in 
Syria, and the Russians should stay out of our way if they want 
to avoid confrontation. Unfortunately, United States aircraft 
are rarely flying now against ISIS targets in Syria, and 
focusing their efforts in Iraq.
    If we continue to wring our hands and continue to be 
dominated by fears and opposed to instilling fear, then Russian 
aggression will not just advance in the Middle East, it will, 
with certainty, escalate in the Baltics and in eastern Europe.
    As to Ukraine and Europe's options, recognize further that 
Russia is not finished in Ukraine, as the new military bases 
across the border suggest. There is still time to expand the 
United States military training of Ukraine battalions, which is 
an effective program, and provide, finally, defensive weapons 
and capabilities that would definitely make a difference, such 
as anti-tank missiles, non-missile air defense to counter the 
drones, counterfire radar to detect the artillery, download 
intelligence from all source capabilities, et cetera.
    The Atlantic Resolve, the name for the U.S.-NATO rotational 
troop deployments to the Baltics, Poland, Romania, and Hungary, 
are helpful but a small deterrence to Russian aggression. 
Russian aggression has already begun in the Baltics--that is, 
it's pounding the Russian-speaking minorities in the Baltics 
with continuous propaganda to create unrest and to foment a 
split with the nation's majority, coupled with continuous 
airspace violations that obviously are harassing the host 
governments.
    Department of Defense must reevaluate its stationing plan 
for the combatant commands, in view of a revisionist and 
aggressive Russia. The Pacific is the largest combatant 
command, with over 400,000 troops, while Europe is considerably 
smaller and less than adequate, now down to around 50,000. The 
assumptions that drove the downsizing of the United States 
military positions in Europe have obviously changed, and we 
need a relook.
    In conclusion, Russia is clearly challenging U.S. influence 
and interests in the Middle East as the dominant outside 
regional country while also seeking to challenge NATO in 
eastern Europe and possibly NATO's very existence. Our allies 
in both regions must be convinced that the United States stand 
behind them. Now is the time for a firm hand, but the United 
States should not close off communications with Russia and 
continue to pursue opportunities where there is mutual 
interest.
    Thank you, Mr. Chairman. And I look forward to your 
questions.
    [The prepared statement of General Keane follows:]

              Prepared Statement by General John M. Keane
    Chairman McCain, ranking member Reed, distinguished members of the 
committee, am honored to be back testifying today on Russia and the 
crisis in Syria and the Ukraine. It's a privilege to be here with my 
panel colleagues, particularly General Jones, who I served with in the 
Pentagon and have known for years. Please refer to the maps provided by 
the Institute for the Study of War (ISW) which I will reference in my 
remarks.
         1. russian strategy and military operations in syria:
    Russia began air strikes in Syria about a week ago after rapidly 
establishing a forward operating air base at Al Assad airfield in 
Latakia province, some 36 miles north of their Naval base at Tartous. 
Establishing an out of region air base, that is isolated from the 
heartland of Russia, in a war zone, is quite unprecedented, 
particularly for a non expeditionary military.
    To establish and sustain this airbase you can see on the map 
labeled `Russian Deployment to Syria', the air bridge routes over Iran 
and Iraq and the sea bridge route through the Black Sea taking 
approximately 4 days to transit. The air base consists of combat 
aircraft, helicopters, drones, logistics support infrastructure, and a 
battalion plus of armor, infantry, artillery and air defense for 
protection of the base. Approximately 2K to 3K personnel make up the 
base which also houses a joint operations center consisting of Russian, 
Syrian, Iranian and Hezbollah military personnel.
    While one can only speculate about the reason for this brazen 
military aggression some realities in Syria are insightful. After 4 
years of civil war the Syrian military, numbers about 125K down from a 
high of 220K. The Army is beset with low morale, desertion and 
equipment problems with the Air Force losing about 1 to 2 aircraft per 
month due to combat or accident. During the last year the opposition 
force has gained steadily on the regime forces with some gains 
operationally significant.
    Please look at the map labeled `Control of Terrain in Syria' and 
you can see the regime control area in orange which is now only about 
20% of Syria. Note the opposition control area to the north and south 
of the orange as the regime is quite confined. Particularly in the 
north with the fall of Idlib province recently, the opposition force is 
beginning to encroach on the Alawite coastal enclave in Latakia 
province which represents Assad's main political support. In the last 
several months there has been some erosion of this Alawite support. To 
the east of Homs and Damascus in central Syria ISIS seized Palmyra city 
and a nearby regime airbase opening up the east-west transportation 
corridor from Homs to the Iraq border. We at ISW suspect that the 
Iranians who are in Syria in far greater number than the Russians (7K 
to 100 plus) and have very good situational awareness, raised the alarm 
to the Russians during multiple visits to Moscow by Iranian 
Revolutionary Guard Corps (IRGC) leaders to include a much reported 
visit by Qasem Soleimani.
    Russia has a 60 plus year relationship with Syria dating back to 
post WWII as the former Soviet Union. Syria is Russia's foothold in the 
Middle East (M.E.) and as such the Tartous Naval base is a strategic 
asset that is much valued. It seems apparent that Russia believed the 
Assad regime survival was in a more precarious position and needed to 
be propped up. As such if you look at the map labeled `Russian 
Airstrikes in Syria', you can see the focus of the airstrikes are 
against the opposition forces threatening the regime from the north in 
Idlib, Hama and Homs province. The moderate opposition forces, many 
trained by the CIA and Jabhat al-Nusra, an AQ affiliate, are the main 
focus with the ISIS targets at Raqqah and near Palmyra are far less 
significant and likely mere `window dressing' for the exaggerated 
narrative that ISIS is the major reason for the Russian presence. 
Russian cruise missiles were introduced yesterday striking 11 targets 
in western and eastern Syria.
    The purpose then of the airstrikes are twofold: one to stop the 
advance of the opposition forces threatening the regime and two to 
begin to set conditions for a ground counter-offensive to retake lost 
territory with the main effort in the north in southern Idlib province 
and northern Hama province. Syrian Army limited ground shaping 
operations began in Idlib province yesterday supported by Russian air. 
A supporting effort may be launched to retake Palmyra and the military 
airbase if the regime can generate sufficient forces. Recapturing the 
ancient city would be a PR victory for Syria and Russia. The counter 
offensive would likely be jointly planned by Syria and Iranian generals 
and consist of the Army, the National Defense Force, which are local 
militias, some actually led and most advised by the IRGC, and the 
Hezbollah and Iraqi Shia militia. Of course Russia and Syria air power 
will play a large role in supporting the ground offensive.
    Even more significant than Russia entering the Syria civil war is 
their recent strategic alliance with Iran which will impact every 
country in the region and further diminish U.S. influence and U.S. 
interests in the region.
    Russia certainly recognizes that the M.E. is experiencing one of 
the most tumultuous periods in its history with the old order 
challenged by the aspirational goals of the Arab Spring, Islamic 
terrorists taking advantage of the political and social upheaval and 
Iran using proxies to gain influence in Lebanon, Syria, Iraq and Yemen. 
Furthermore, Russia observed, probably somewhat in disbelief, as the 
U.S. abandoned Mubarak in Egypt, abandoned Iraq and retreated from 
Yemen and Libya as part of an unstated policy to disengage from the 
M.E. to avoid the strategic mistake of another M.E. protracted war. For 
a year now, Russia has been leveraging this reality to their own 
advantage by entering into arms deals with Saudi Arabia, UAE, Kuwait 
and Egypt. Also, there are Russian counter terrorism experts advising 
the Egyptian military in their fight against ISIS. A country the U.S. 
had a mil to mil relationship with for 35 years. These countries 
purchasing Russian weapons who normally buy U.S. and European weapons 
are not driven by the desire to have Russian equipment but by the harsh 
reality of the changing geopolitical landscape and their desire to have 
a relationship with Russia as leverage against their strategic enemy, 
Iran. Iraq is also purchasing Russian weapons as the promised U.S. flow 
of weapons has been slow to nonexistent at times and have recently 
welcomed Russian generals and their staff to join their coordination 
center in Baghdad to share intelligence with the Iraq Army, the IRGC 
and the Iraq Shia militia. Russia is also in preliminary discussion to 
build nuclear power plants in Saudi Arabia, Jordan, Egypt and Tunisia, 
with all their inherent problems of corruption, fraud, criminality to 
say nothing of the major security challenge of nuclear power plants. 
The relationship with Iran and its proxies matters to Russia because it 
provides them greater influence in the M.E. while also acting as a 
strategic buffer to their south against radical Islam, a threat which 
is of great concern to them now in southern Russia.
     2. russian strategy and military operations in ukraine/europe:
    Vladimir Putin came to power after the economic, political and 
social chaos of the 1990's following the collapse of the Soviet Union 
and ending the decade with their own military in shambles and suffering 
the public humiliation of his Serbian ally, Milosevic, not only losing 
all 4 wars he fought but being bombed into oblivion by the Americans in 
a 78 day air campaign.
    Putin certainly shaped, in part, by these events and his life as a 
KGB officer tightens internal security and control, crushes the 
Chechens, represses political opposition, takes control of the media, 
and puts Russia on a path to be a world power with global influence. 
Most historical world powers have strong economies and strong 
militaries, Russia, the former Soviet Union was never prosperous but 
certainly had a strong military. Putin was on a path to do just that 
again with his military when the economy tanked, leaving him with a 
military that is no match to the U.S. and NATO but with about 1/3rd 
good units with some select excellent capabilities. This is a land 
centric force with good combat aircraft, bombers, submarines, and a 
limited power projection Navy with only one aircraft carrier.
    Russia's strategy in Europe is influenced by the Napoleonic and 
Nazi invasions and the strategic buffer that existed in eastern Europe 
as part of the Warsaw Pact, protecting the heartland of Russia for 
almost 50 years. These buffer countries are now a part of NATO, which 
Putin sees as a security risk.
    As such Putin saw Ukraine, which is a food breadbasket for Russia, 
being threatened by the desire of many Ukrainians to politically, 
economically and militarily align with the European Union and 
potentially NATO. After Putin lost his political stooge, Yanukovych who 
he thought would stop the Ukraine movement to the West, he immediately 
annexed Crimea, correctly believing the Europeans and Americans would 
be stunned into compliance, thus recovering at home from the 
embarrassment of Yanukovych's departure. Encouraged by success, Putin 
moved on eastern Ukraine introducing hybrid warfare, a combination of 
SOF and intell officers to help create popular unrest, organize 
sympathizers into fighting units and when the host country Army moves 
to put down the movement, bring in Russian disguised conventional 
military to defeat the Army.
    Russia's use of military force in Ukraine is very revealing as it 
relies heavily on drones to detect Ukrainian military units with target 
information relayed to artillery batteries and within a few minutes, 
massive artillery is landing on the target, some with thermobaric 
shells creating a fire incendiary on the unit, which is quite 
devastating. As such, the separatists supported by Russian military 
have consolidated Luhansk and Donetsk provinces but denied the land 
bridge to Mariupol.
    The political result is more significant because the Kiev 
government has given up on any economic or certainly military alignment 
with Europe or NATO. Putin wants the Kiev government to fail and be 
replaced by a more friendly Russian government. Putin will continue the 
pressure, see the map labeled `Current/Proposed Russian Bases Near 
Ukraine,' with the two new permanent ground force bases that are under 
construction across from the Ukrainian border in Russia and the air 
base Putin is building in Belarus.
                            3. u.s. options

<bullet> ,Overall:
    U.S. strategy should be to assure our allies and friends, deter 
Russian aggression and defeat ISIS initially and, long term, as a part 
of a global alliance to defeat radical Islam. Putin believes that 
European and American leadership is weak and has consistently out-
maneuvered and out bluffed the U.S. and its allies. Putin is counting 
on the U.S. fear of escalation and fear of confrontation to stop any 
thought of retaliation. Aggression unanswered, historically, has led to 
more aggression.

<bullet> ,Syria Options:

     - ,Recognize the anti ISIS strategy in Iraq and Syria is failing 
and we are certain to lose the war unless there is major and 
comprehensive change to build an effective and decisive ground force in 
Syria and Iraq while removing restrictions on the air campaign to 
dramatically increase airstrike capability. Continue U.S. policy to 
force Assad from power, but understand that Russia, as Assad's 
protector will now play a decisive role.

     - ,Deter: Putin has begun a proxy war with the U.S. when Russian 
combat aircraft struck, continuously, moderate rebel forces trained by 
the CIA. This was no accident, targets were provided by the Syrian 
regime and they were accurate. How can the U.S. stand by and do 
nothing? U.S. military should have been given the mission to retaliate. 
Options likely to be considered among others: crater the Al Assad 
runway, establish free zones that are sanctuaries for refugees, strike 
Assad's helicopter fleet that is barrel bombing, just to name a few.

     - ,Deter: Advise Russia that the U.S. and the coalition will 
conduct air operations anytime, anywhere in Syria and that they should 
stay out of our way if they want to avoid confrontation. Believe U.S. 
aircraft are rarely flying now against ISIS targets in Syria.

     - ,If we continue to wring our hands and continue to be dominated 
by fear and opposed to instilling fear, the Russian aggression will not 
just advance in the M.E. but most likely it will escalate in the 
Baltics and eastern Europe.

<bullet> ,Ukraine / Europe Options:

     - ,Deter: Recognize further that Russia is not finished in Ukraine 
as the new military bases across the border suggest. There is still 
time in addition to the U.S. military, training Ukraine battalions, 
which is an effective program and providing non-lethal aid, to provide 
defensive weapons and capabilities that would definitely make a 
difference. Such as: anti tank missiles, non-missile air defense to 
counter the drones, counter fire radar to detect the artillery, 
downloaded intelligence from U.S. all source capabilities etc

     - ,Deter: The Atlantic Resolve U.S./NATO rotational troop 
deployments to the Baltics, Poland, Romania and Hungary are a helpful 
but a small deterrence to Russian aggression. Russia is pounding the 
Russian speaking minorities in the Baltics with continuous propaganda 
to create unrest and to foment a split with the nation's majority. 
Department of Defense must re-evaluate its stationing plan for the 
Combatant Commands in view of a revisionist and aggressive Russia. The 
Pacific is the largest Combatant Command with over 400K troops while 
Europe is considerably smaller and less than adequate with about 50K. 
(The Cold War stationing in Europe was approximately 600K).

    Larger force commitments permit larger unit rotational deployments 
and a permanent base structure in the Baltics and eastern Europe. All 
deployed forces assigned to bases in central Europe no longer makes 
sense. Obviously, NATO must adjust its priorities as well as the U.S.
    In conclusion, Russia is clearly challenging U.S. influence and 
interest in the M.E. as the dominant outside regional country while 
also seeking to challenge NATO in eastern Europe and possibly its very 
existence. While at times this demands a firm hand the U.S. should not 
close off communications with Russia but continue to pursue 
opportunities when there is mutual self interest. Such an interest is 
radical Islam. Russia was and is consumed with radical Islam and its 
threat which is the primary reason for the war in Afghanistan and prior 
to 9/11 it fought two major battles with the Chechens. The U.S. and 
Russia could partner on this issue as both countries have the most 
experience and could help organize together a global alliance. Another 
area is partnering on nuclear power plant development and security in 
the M.E. to the economic benefit of the M.E. while controlling uranium 
enrichment and plant security. Clearly Russia and the U.S. are in a 
renewed strategic competitive relationship which still has 
opportunities for positive engagement for mutual benefit.
    Thank you and I look forward to your questions.
      
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      

    Senator McCain. Thank you.
    Ms. Conley.

STATEMENT OF HEATHER CONLEY, SENIOR VICE PRESIDENT FOR EUROPE, 
 EURASIA, AND THE ARCTIC; DIRECTOR, EUROPE PROGRAM, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Ms. Conley. Chairman McCain, Senator Reed, members of the 
committee, thank you so much. It is a privilege to speak to you 
this morning, as well as join with my fellow panelists to 
discuss the evolving nature of Russia's growing military 
threat, which geographically stretches from the Kola Peninsula 
in the Arctic to the Mediterranean coast of Syria.
    In my view, the Kremlin is reconstructing a 21st century 
version of the Iron Curtain. As General Keane mentioned, 
they're recreating a strategic buffer which is designed to 
achieve a new grand international bargain with the West, a 
Yalta 2.0, if you will, that assures a Russian sphere of 
influence in Europe and the Middle East. This curtain, like its 
20th century predecessor, seeks to block the perceived 
contagion of democracy and reform while returning Russia to 
internationally recognized great-power status. This curtain is 
designed to do several things: deny military access to the West 
through the construction of new, and the revitalization of 
former, Russian military bases. It is designed to ensure the 
continuous exercising of air, land, and sea capabilities at 
full combat readiness. It rapidly mobilizes substantial Russian 
forces in a very short period of time. It's designed to deploy 
a variety of hybrid economic and political tactics which are at 
its disposal. And, finally, it employs an extremely effective 
counter-factual strategic communications campaign.
    Now, this 21st century curtain also has a built-in Kremlin-
controlled thermostat. President Putin can turn up the heat 
when and where he wants, as he's done in eastern Ukraine; and 
when it is needed, he can turn down the heat, as we're seeing 
right now. And then he can shift to a different portion of this 
curtain, as he is doing in Syria. The West will continue to 
react to the Kremlin's actions rather than proactively shape 
and deter them.
    Russia's military modernization in the Arctic is the 
perfect example of how this new curtain, or, as I suggest in a 
new CSIS report, an ``ice curtain,'' has been constructed. 
Russia has held three major military exercises in the Arctic 
over the last 24 months. The first exercise was part of a 
larger Zapad 2013 military exercise, which focused on Russia's 
western military district, and it demonstrated a more 
streamlined command structure, more efficient tactical units, 
and the ability to deploy a large-scale complex military 
operation coordinated with other areas of operation. This 
exercise fully demonstrated that Russia has a much larger 
spatial definition of its theater of operations, which extends 
from the Arctic to the Black Sea.
    The second exercise, in September of 2014, was the largest 
post-Soviet military exercises that we have seen. It was held 
in the Russian far east, and it was preceded by a snap military 
exercise. Vostok 2014 involved over 100,000 servicemen and 
demonstrated a complex display of air, maritime, and land 
components. And this exercise was partly conducted on new 
military bases in the Russian Arctic, New Siberian Islands, and 
Wrangel Island, which some believe simulated an exercise to 
repel U.S. and NATO forces.
    And then, finally, in March of this year we saw the third 
and most culminating exercise, which was a snap military 
exercise in the Arctic which consisted of 45,000 Russian 
forces, 15 submarines, and 41 warships at full combat 
readiness. We did not know that they were going to do this.
    So, this extraordinary exercise tempo, the threefold 
increase in Russian air incursions over the Arctic, Baltic, and 
North Seas over the past 12 months, as well as Russia's 
announcement that will--it will have a total of 14 operational 
airfields in the Russian Arctic by the end of this year, 50 
airfields by 2020, and a 30-percent increase in Russian special 
forces deployed to the Arctic, all underscore that the Arctic 
is becoming a major theater of operations for Russia. The 
Arctic region has now been included in Russia's amended 
military doctrine, as of December of last year, and in its new 
maritime doctrine, which was just released in July. And it is 
under a new command, the Russian Northern Fleet United 
Strategic Command for the Arctic.
    Now, the conclusions that we draw from Russia's military 
behavior is that it is increasingly able to project significant 
anti-access, anti-denial capabilities in the Arctic, the north 
Atlantic, and, increasingly, the north Pacific, which 
demonstrates the ability to rapidly deploy both conventional 
and unconventional forces. What is perhaps the most disturbing 
has been Russia's focus on enhancing its nuclear deterrent in 
the Arctic, where it has simulated massive retaliatory attacks 
in the Barents Sea. Our Norwegian and British allies--and I 
know, Senator McCain, you were recently in the region--have 
witnessed a surge in Russian submarine activity in the north 
Atlantic.
    So, let me just very briefly describe the remaining 
geographic contours of this 21st century curtain. The curtain 
proceeds from the Arctic, south to the Finnish-Russian border. 
Russia has returned to an abandoned military base 50 kilometers 
from the Finnish border, where the 1st Russian Infantry Brigade 
has arrived with 3,000 soldiers anticipated. The curtain 
proceeds to the Russian exclave of Kaliningrad, home of the 
Russian Baltic Fleet, where vessels from the fleet have 
delivered fighter jets and Asconder missile launchers capable 
of launching both conventional and nuclear missiles. Russia has 
recently installed new S 09400 missile batteries and has 
increased its force presence.
    The curtain then transitions from ice to steel on the 
Polish-Belarusian border, where President Putin has just 
ordered Russian officials to construct, with its Belarusian 
counterparts, a new military base in Belarus. This is the first 
time a newly constructed military base will be outside of 
Russia since the collapse of the Soviet Union. This base will 
station SU 0927 fighters.
    The curtain, of course, extends fully to Ukraine, where 
Russia has an estimated 29,000 soldiers in occupied Crimea, a 
substantially increased Baltic Sea fleet, which it plans to 
augment with 30 additional vessels by 2020.
    The curtain then continues, going, of course, as General 
Keane explained, through eastern Ukraine and extremely capable 
forces on the Russian-Ukrainian border, in fact, commencing 
construction of new installations that will potentially contain 
significant munitions ordnance facilities.
    Ukraine, of course, we move to Transnistria and Moldova, 
where there are 1500 troops--Russian troops stationed as 
peacekeepers. And, of course, from Russia's invasion of Georgia 
in 2008, we have Russian military presence in South Ossetia and 
Abkhazia. And, in fact, the Russians have been pushing out this 
territory. They are 100 kilometers from the main Georgian 
highway that would divide Georgia. So, they're increasing their 
territorial gains. And, as we've seen extensive--this curtain 
continues, then, to Armenia, where Russia is further augmenting 
its forces, and then, as we know, from--to Syria.
    So, how can the U.S. and NATO respond to this new curtain 
of ice and steel? I'd like to commend the committee. The 
National Defense Authorization Act is a really great point of 
departure. And I commend the bipartisan resolve to seek to 
assess these challenges and identify critical gaps. For far too 
long, we've discounted Russia's military capabilities and did 
not take their threats and pronouncements seriously. We can no 
longer afford that luxury.
    But, simply assessing the problem is woefully insufficient. 
Painful budget and force-posture decisions must now be taken. 
We cannot reset this challenge away, and we cannot get back to 
business as usual. The West has forgotten how to conduct 
effective deterrence in the Modern Age against a sophisticated 
adversary. Deterrence is as effective as the credibility on 
which it stands.
    The United States immediately and positively responded to 
requests for U.S. forces to be sent to the Baltic states, 
Poland, and Romania, when requested last spring without 
pondering the decision for months. The strong bipartisan 
support for the European Reassurance Initiative was another 
important signal of U.S. resolve. This act strengthened U.S. 
and NATO's Article 5 credibility, but these actions were viewed 
as temporary measures to change President Putin's behavior in 
Ukraine. This has not achieved its objectives, and now we need 
a more durable deterrence posture.
    U.S. and North Atlantic Treaty Organization (NATO) forces, 
accompanied by significant air and maritime components, must 
increase their presence on NATO's northern and eastern flanks. 
The U.S. should seriously consider sending a third combat 
brigade to Europe to reinforce both flanks while strongly 
encouraging our European allies to increase their force 
presence, as well.
    NATO must initiate the pre-positioning of military 
equipment in the region, not simply for exercise purposes only, 
and immediately address identified shortcomings in secure 
communications and infrastructure needs that were identified 
during Operation Atlantic Resolve this year, as well as 
continue to increase the number of regional exercise. We must 
ensure rapid deployability. And that is where we are lacking.
    It is time, to echo General Keane's comments, for a 
comprehensive review of U.S. force posture in Europe for the 
next 5 to 10 years. It is for this reason that the outcome of 
next year's NATO summit in Warsaw is absolutely critical. If 
NATO simply decides to review the decisions it reached at its 
last summit, the alliance will have failed to address its most 
significant security challenge since the end of the Cold War. 
The summit must launch a long-term strategic adaptation to what 
will be a long-term and highly destabilizing challenge.
    Mr. Chairman, on one final note and a word of caution, as 
much as the U.S. and NATO must do more to deter future Russian 
military aggression, we must also be fully cognizant of the 
devastating impact of Russian influence inside NATO that 
inhibit allies from taking collective action against Russia. As 
Russia dominates the media, financial, and energy markets of 
some of our NATO allies, we will find NATO collectively less 
able to respond. This requires as much policy attention by the 
U.S. and NATO as it does to militarily deter the Kremlin.
    I thank you, Mr. Chairman.
    [The prepared statement of Ms. Conley follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        

    Senator McCain. Ambassador Sestanovich, welcome.

STATEMENT OF HON. STEPHEN SESTANOVICH, GEORGE F. KENNAN SENIOR 
  FELLOW FOR RUSSIAN AND EURASIAN STUDIES, COUNCIL ON FOREIGN 
                 RELATIONS, COLUMBIA UNIVERSITY

    Ambassador Sestanovich. Chairman McCain, Senator Reed, 
members of the committee, thank you for the opportunity to join 
your discussion today.
    Let me organize just some brief introductory remarks by 
picking up on two comments on Russia by General Dunford, the 
new distinguished Chairman of the Joint Chiefs, who, in his 
confirmation testimony to you this summer, described Russian 
behavior as ``alarming.'' I completely agree with this. I also 
disagree with the other thing he said, which was that Russia is 
an existential threat to the United States. And let me explain 
why I disagree.
    First, when we talk about an existential threat, we mislead 
ourselves. No matter how alarmed we are by Russia's current 
behavior, we use the term ``existential threat'' only because 
of its large strategic nuclear arsenal. And that's a potential 
threat whether Russia's relations with us are good or bad, or 
whether Russia's behavior is reckless or wise. Russia has acted 
recklessly of late, but that has not really increased the 
existential threat General Dunford spoke of.
    Second, this language misleads Russians. It feeds a public 
mood in Russia that honestly borders on national hysteria. 
These days, Russian officials routinely say things about the 
United States that are bizarre and incomprehensible. 
Unfortunately, hearing that we see Russia as an existential 
threat--pretty extreme language, after all--tells many Russians 
that our countries are on a collision course toward war, and 
that we have accepted that idea. I urge the members of this 
committee to take a different approach, to challenge 
responsible Russians to see how strange and counterproductive 
their country's policies looks to the outside world, not to 
make ourselves look equally strange.
    Now, I said I agree that Russian behavior is alarming. It's 
really alarming. And we need to appreciate that--not only that 
it is alarming, but that it doesn't come out of nowhere. This 
is not something that has just happened in the past year or 
two.
    First--a few quick points on this--Russian actions in the 
Middle East and in Ukraine reflect the doubling and more of 
their defense budget in the past 10 years 50-percent increase 
just since the end of the financial crisis, in the past 5 
years. This program of modernization is still unfolding, and 
the biggest procurement projects are ahead. As Russia's 
capabilities have increased, so has its anti-Western rhetoric. 
The official military doctrine of Russia identifies both NATO 
and the United States as threats to Russia.
    Secondly, Russian actions reflect the new nationalism of 
Russian public opinion. The seizure of Crimea and continuing 
attempts to fragment eastern Ukraine have given this 
nationalist mood an angrier, more embattled tone. Russian 
decisionmakers feel they can count on public support for more 
assertive displays of national power. They have to worry, of 
course, about casualties. And I think we should assume that 
they are just as worried, and maybe more worried, about 
casualties in Syria than they have been in Ukraine. But, so 
far, that concern has not restrained their conduct. Putin's 
popularity is largely intact.
    Third, Russian actions are a response, as President Obama 
and as General Keane has noted, to the weakness of the Assad 
regime in Syria, Russia's oldest and now only real ally in the 
region. President Putin has made clear, as he has in Ukraine, 
that he is prepared to make a significant military commitment 
to save embattled clients, no matter how shaky and illegitimate 
their position is. And he acts this way, in part, because 
circumstances allow it. In Syria, several years of policy 
confusion by the United States and Europe have encouraged him. 
Had the United States imposed a no-fly zone in Syria 3 years 
ago, there would be no Russian intervention today.
    Fourth, Secretary Carter may well be right that Russian 
policy is doomed to fail. I'm--I think this is entirely 
possible. But, in the course of failing, it may do a great deal 
of damage, both in Syria and beyond. It should, therefore, be a 
goal of the United States and its allies to limit and 
eventually reverse Russia's intervention. Continued confusion, 
merely calling on Russia to join the coalition against ISIS, 
will not achieve this end.
    Fifth, anyone responsible for the national security of the 
United States, like the members of this committee, should worry 
about where Russia's reckless behavior will lead next. There 
are many areas in which one could expect troublemaking. We 
should not, by any means, conclude that we face an endless, 
never-cresting wave of Russian activism. To my mind, what Putin 
is doing now in Syria probably reduces the risks of near-term 
military provocations in Europe, especially against our NATO 
allies. If I were a Baltic Defense Minister, I'd actually be 
sleeping slightly better these days.
    But, we have to remember that most of us have been wrong in 
anticipating Russian actions in the past couple of years. Just 
when we thought Putin had finally realized he had acted 
foolishly, he then acted even more foolishly. Today, the 
ingredients of some future confrontation may already be coming 
together. After what we've seen of Russian behavior, we can't 
afford to be unprepared.
    Mr. Chairman, members of the committee, let me close as I 
began, by urging realism about the problems that Russian policy 
creates without making those problems worse than they have to 
be. Many Russians understand that President Putin is damaging 
his own country's security as well as others. They should hear 
from us and from you. They should be able to speak up against 
his actions. They should understand that the United States will 
protect itself, its allies, and its interests. They should also 
understand that there can be a place for them in this effort if 
they want it.
    Thank you, Mr. Chairman. I look forward to our discussion.
    [The prepared statement of Ambassador Sestanovich follows:]

               Prepared statement by Stephen Sestanovich
    Chairman McCain, Senator Reed, Members of the Committee:
    Thank you for the opportunity to join your discussion today on 
Russian policy in Europe and the Middle East, especially actions taken 
by Russian military units in Syria in the last few days. These Russian 
steps are not only unprecedented in the post-Cold War era, they have 
few antecedents in the Cold War itself. They call for careful analysis 
and an equally careful policy response.
    Members of this committee surely remember how General Joe Dunford, 
the new JCS Chairman, described Russian policy in his confirmation 
testimony. ``Alarming,'' he called it, and I completely agree. I don't, 
however, agree with the other thing General Dunford said. He described 
Russia as an ``existential threat'' to the United States.
    Let me explain why I disagree.
    First, in using this language we mislead ourselves. No matter how 
alarmed we are by Russia's current behavior, we use the term 
``existential threat'' only because of its large strategic nuclear 
arsenal. Its many nuclear weapon are a potential threat whether our 
relations with Russia are good or bad, whether Russian behavior is 
reckless or wise. Russia has acted recklessly of late, but that has not 
really increased the ``existential threat'' General Dunford spoke of.
    The Council on Foreign Relations takes no institutional positions 
on policy issues and has no affiliation with the United States 
Government. All statements of fact and expressions of opinion contained 
herein are the sole responsibility of the author.
    Second, this language also misleads the Russians. It feeds a public 
mood in Russia that borders on national hysteria. These days senior 
Russian officials often say things about the United States that are 
bizarre and incomprehensible. Unfortunately, hearing that we see Russia 
as an ``existential threat''--pretty extreme language, after all--tells 
many Russians that our countries are on a collision course to war. 
Worse, it is understood by some to mean that America's leaders are 
preparing for this future conflict. I urge the members of this 
Committee to take a different approach--to challenge responsible 
Russians to see how strange their country's policy looks to the outside 
world, not to make ourselves seem equally strange.
    Now, a few words about Russian policy itself. As I have said, it is 
both alarming and strange. We need to appreciate just how alarming it 
is, but we should not think it comes out of nowhere.
    First, Russian actions in the Middle East reflect the doubling (and 
more) of their defense budget in the past 10 years. This program of 
modernization is still unfolding; the biggest procurement projects are 
ahead. As Russia's capabilities have increased, so has its anti-Western 
rhetoric. The official military doctrine adopted late last year 
identifies both NATO and the United States as threats to Russia.
    Second, Russian actions reflect the new nationalism of Russian 
public opinion. The seizure of Crimea and continuing attempts to 
fragment eastern Ukraine have given this nationalist mood an angrier, 
more embattled tone. Russian decision-makers surely feel they can count 
on popular support for more assertive displays of national power, but 
they cannot be any surer of this than we can. There are in fact reasons 
to believe that Russian leaders worry about operations that might bring 
casualties down the road. (How else to explain the steadfast lying 
about the presence of Russian military personnel in Ukraine or the 
claim that in Syria only ``volunteers'' will take part in ground 
operations?)
    Third, Russia's actions are a response, as President Obama has 
noted, to the weakness of the Assad regime in Syria, Russia's oldest 
(and now only) real ally in the region. As President Putin has made 
clear in Ukraine, he is prepared to make a significant military 
commitment to save embattled clients, no matter how shaky and 
illegitimate their position. But Putin acts this way in part because he 
thinks circumstances allow it. In Syria, several years of policy 
confusion by the United States and Europe have encouraged him. Had the 
United States imposed a no-fly zone in Syria three years ago, there 
would be no Russian intervention today.
    Fourth, Secretary of Defense Ash Carter may well be right that 
Russian policy is ``doomed to fail.'' But even in the course of failing 
it may do a great deal of damage, both in Syria and beyond. It should 
therefore be a goal of the United States and its allies to limit 
Russia's intervention. Continued confusion-- including calls for Russia 
to focus its actions on defeating ISIS--will not achieve this aim.
    Fifth, anyone responsible for the national security of the United 
States--and I certainly include the members of this Committee--should 
worry about where Russia's reckless behavior will lead next. We should 
not by any means conclude that we face an endless, never-cresting wave 
of activism. If anything, what Putin is doing now in Syria probably 
reduces the risk of near-term military provocations in Europe, 
especially against our NATO allies. (If I were a Baltic defense 
minister, I'd be sleeping slightly better these days.) But we have to 
remember that most of us have been wrong in anticipating Russian 
actions of the past couple of years. Just when we thought Putin had 
finally realized that he had acted foolishly, he acted even more 
foolishly. Today the ingredients of some future confrontation may 
already be coming together. After what we've seen of Russian behavior, 
we can't afford to be unprepared.
    Mr. Chairman, let me close as I began--by urging realism about the 
problems Russian policy creates without making those problems worse 
than they have to be. Many Russians understand that President Putin is 
damaging his own country's security as well as others. They should hear 
from us--and from you. They should understand that the United States 
will protect itself, its allies, and its interests. They should also 
understand that there can be a place for them in this effort if they 
want it.
    Thank you, Mr. Chairman. I look forward to our discussion.

    Senator McCain. General Jones.

  STATEMENT OF GENERAL JAMES L. JONES, USMC (RET.), CHAIRMAN, 
  BRENT SCOWCROFT CENTER ON INTERNATIONAL SECURITY, ATLANTIC 
         COUNCIL, AND FORMER NATIONAL SECURITY ADVISOR

    General Jones. Thank you, Mr. Chairman, Senator Reed, 
members of the committee. Thank you for convening this 
important hearing at this very challenging and consequential 
juncture in America's relations with Russia and in world 
affairs, in general.
    We are all witnessing the most recent and dangerous 
developments in Syria, where Mr. Putin, under the guise of 
fighting ISIL, is using force to advance his highly cynical 
campaign to prop up Bashar al-Assad. This action is merely the 
latest in a pattern of behavior emanating from Moscow that we 
had hoped ended with the Cold War. Unfortunately, as I came to 
learn during my tenure as National Security Advisor, the 
dissolution of the Warsaw Pact was an outcome that was neither 
cheered nor welcomed nor accepted by the current Russian 
President.
    I've submitted a full written statement covering three 
areas that will hopefully be of help to the committee. The 
first is my view of Mr. Putin's primary motivations and goals. 
The second regards his strategy. And the third addresses some 
thoughts regarding what the United States and our allies could 
consider doing in response.
    Mr. Chairman, in 2009, as National Security Advisor, I 
attended a breakfast meeting in Moscow between the then-Prime 
Minister Putin and our President. I left that meeting convinced 
of three things: first, that Mr. Putin will always be a product 
of his upbringing in the KGB; second, that he believes deeply 
that Russia was humiliated by the conclusion of the Cold War, 
and is wholeheartedly committed to righting what he sees as an 
historic injustice, the collapse of the Soviet Union; third, he 
clearly believes that NATO is a great evil and that his 
interests are best served by weakening the Transatlantic 
Alliance and destabilizing his western periphery.
    These three views are reflected not only in Russia's 
revanchist foreign policy and adventures abroad, but also in 
the country's lack of political and economic evolution during 
his tenure as President, all quite similar to Cold War behavior 
and priorities. During President Medvedev's tenure, we 
genuinely hoped that he aimed to integrate Russia into the 
Euro-Atlantic ark and was the kind of partner with whom we 
could work to achieve common goals. Upon returning to the 
presidency, President Putin reversed much of the progress we 
made during the Medvedev presidency, and is now taking Russia 
down a very different path.
    The Russian President has proven he remains a cynical Cold 
War hero, needing an enemy to make himself look good and deeply 
nostalgic for a Moscow-centric sphere of influence. His 
strategic objective is to reassert Russian power and prestige 
on his terms without regard to international principles and 
norms. He is willing to use force to achieve his objectives, 
including overturning internationally recognized boundaries and 
disregarding state sovereignty illustrated by the illegal 
annexation of the Crimea in 2014.
    Despite an anemic economy debilitated by low oil prices, 
cronyism, and corruption, and now in a full recession, he is 
nonetheless consolidating his power effectively. He continues 
to subvert human rights, clamp down on media and free 
expression, fosters an environment of hostility for what is 
left of his political opposition, and takes intentionally 
stabilizing actions abroad, all the while operating a robust 
propaganda machine at home and abroad to make it appear that he 
is doing none of those things.
    As outlined in my full statement, to pursue his ambitions 
he is employing a broad toolkit composed of major military, 
energy, and political elements. A very high priority for Mr. 
Putin, despite enormous domestic problems, is strengthening and 
modernizing the Russian military to reassert power on the world 
stage. United States military leaders fear that the extensive 
new capabilities President Putin is accumulating are being used 
to pursue an anti-access area-denial strategy against NATO, 
particularly in the Baltic Sea regions from Kaliningrad in the 
Black Sea region, from Russia's buildup in the Crimea, now in 
Syria from its deployment of anti-aircraft capabilities, and 
the naval bombardment from the Caspian.
    There was growing concern within the alliance that 
President Putin is using a series of capability deployments in 
these sensitive areas to raise the risk, or perceived risk, of 
U.S. or coalition military action in these regions. We see this 
in Syria, where Russia's deployments are geared not towards 
fighting the Islamic State of Iraq and the Levant (ISIL), but 
rather towards protecting the regime of Assad. I believe that 
the Russian President's deployment of combat aircraft and 
sophisticated air defenses, which are not needed to fight ISIS, 
are intended to deter the United States-led coalition from 
establishing a no-fly zone in northern Syria.
    Russian military exercises, some conducted on very short 
notice and as discussed by the other witnesses, also pose a 
significant cause for concern. Major military maneuvers in the 
Arctic, joined with China in naval drills near our Japanese 
allies, and held major--and major exercises, which included 
tens of thousands of troops, on NATO's eastern flank. Indeed, 
in March of 2015, Russia held an exercise intended to simulate 
the invasion of Denmark and the Baltic states. In some cases, 
the guise of training has been used to mask long-term Russian 
troop deployments, such as in Syria last month and in eastern 
Ukraine, where the United States European Command has estimated 
there may be as many as 12,000 Russian troops. Russia's use of 
so-called ``volunteers,'' or ``little green men,'' which 
ostensibly offer Moscow plausible deniability, is another 
element of the Kremlin's so-called ``hybrid warfare'' tactic. 
We have been alerted by Moscow that such volunteers may find 
their way to Syria very soon. There have also--we have--there 
have also--we have also seen the deployment of more aggressive 
and more capable Russian naval forces.
    Finally, there are increasing reports that Russian military 
aircraft are violating NATO airspace with their transponders 
turned off, raising the risk of civilian aircraft accidents 
while violating the sovereignty of our treaty allies. NATO 
intercepted some 400 Russian aircraft flying over Europe in 
2014. A number suggest that 2015 will exceed that total. And, 
of course, just this week, Russia violated the sovereign 
airspace of our Turkish allies.
    There is another weapon that Mr. Putin has been utilizing 
to satisfy his ambitions for quite some time, and that is 
energy, energy by seeking to maintain European dependence on 
Russian gas and use it as a lever to--for manipulation. The 
members of this committee understand that Mr. Putin's incursion 
in the Crimea is, among other things, about exercising 
political power through the control of energy and about 
brandishing the threat of energy scarcity to intimidate and 
manipulate vulnerable populations. Fortunately, Europe is now 
awakening to the threat and is investing in redundancies, gas 
storage hubs, and interconnectors that reduce Russia's ability 
to hold countries hostage.
    Thirdly, President Putin is working hard to sow division 
within the western alliance and undercut the cohesion of the 
Euro-Atlantic ark of economic and security cooperation. He has 
built links to European party leaders on the far right and far 
left in order to foster close relationships at the political 
and financial levels, and made a habit of sustaining old and 
corrupt alliances, such as with Syrian President Assad. Just 
this week, President Assad noted the importance of the Russia, 
Iran, Iraq alliance that's sustaining his regime.
    So, before us is emerging one of the premier strategic 
challenges of the post-Cold War period, and that is doing what 
we can do to counter President Putin's retrograde ambitions in 
favor of the peaceful and progressive order of the 
transatlantic community that the world had envisioned at the 
opening of the 21st century.
    In the face of the strategic environment I've described, I 
believe the United States should lead the alliance in 
developing a three-pronged approach that includes economic, 
political, and security components:
    First, in the economic realm, to underline Mr. Putin's use 
of energy as a political weapon, the United States should 
support the European Union's development of an energy, 
telecommunications, and transportation infrastructure corridor 
along a north-south axis from the Baltic to the Adriatic. My 
full statement provides greater details on this major strategic 
initiative, and I ask permission to submit for the record a 
comprehensive plan for doing so.
    Senator McCain. Without objection.
    General Jones. I have a copy of the plan right here.
    Senator McCain. Without objection.
    General Jones. There is much we can do, and must do, to 
support the development of this critical infrastructure to 
complete Europe and counter Mr. Putin's use of energy as a 
weapon. So, I would ask your permission, Mr. Chairman, to make 
the report a part of the hearing record.
    Senator McCain. Without objection.
    General Jones. Thank you.
    I recommend the Transatlantic Trade and Investment 
Partnership to promote transatlantic growth, prosperity, and 
security making the alliance resilient and certainly more 
unified. And we should maintain U.S./EU sanctions imposed in 
response to Russia's illegal actions in the Ukraine. These 
sanctions may not have altered Putin's strategic calculus in 
the Ukraine, but they have raised a cost to his actions and 
left Russia partially economically isolated.
    Secondly, politically, a central tenet of United States 
strategy for countering Russia should be to strengthen 
transatlantic solidarity and cooperation. American leadership 
in this effort will be crucial in fostering a common vision for 
the alliance in the face of new and more challenging operating 
environments. This should be accompanied by a comprehensive 
public diplomacy campaign spotlighting the values that make the 
transatlantic community unique and conducive to human 
development: free and open markets, respect for human rights 
and democratic governance, respect for the rule of law--values 
that stand today in stark contrast to Mr. Putin's Russia.
    Part of that effort must be to reaffirm NATO's open-door 
policy. At next year's summit in Warsaw, NATO should admit 
Montenegro, assuming it has met all political and military 
commitments. Doing so would counter Russia's growing influence 
in the Balkans and send a powerful signal that the vision of a 
united Europe whole and free remains viable. A similar effort 
should be made by Washington to unlock the tragic political 
conflict within the alliance that has prevented Macedonia from 
taking its rightful place as a NATO member.
    Third, the security mission. We must enhance NATO force 
presence in an eastern Europe to include American forces. This 
will be controversial, because some allies now fear provoking 
Russia, which will require careful diplomacy. Given Russia's 
aggressive exercises and troop positioning on NATO's eastern 
flank, I believe we run a greater risk of conflict by not 
increasing NATO's presence in central and eastern Europe. NATO, 
Mr. Chairman, must become more proactive, more agile within the 
alliance in order to prevent future conflict. I applaud the 
efforts of the
    United States Congress to fund the President's $1 billion 
initiative to enhance the presence of United States rotational 
forces, air policing, and infrastructure in central eastern and 
southeast Europe. This appropriation should continue, given the 
ongoing Russian threat to our allies, but United States 
political leaders should also press our allies to continue 
their own contributions to NATO's readiness action plan. The 
next summit in Warsaw will be critical to the future of the 
alliance.
    I've offered additional suggestions in my full statement. 
They include making resilience a core task of NATO to 
complement the NATO's--the alliance's current core task of 
collective defense, cooperative security, and crisis 
management, enhancing NATO's cybersecurity capabilities and 
responsibilities, empowering the Supreme Allied Commander to 
conduct rapid troop deployment in response to Russia's reliance 
on strategic surprise and hybrid warfare, and providing robust 
and well-targeted assistance to the Ukraine.
    I support the administration's recent decisions on long-
range counter-battery radars to Ukraine. I believe we should 
take additional measures, such as providing the anti-tank 
missiles, communications, and intelligence support, training in 
counter-electronic warfare capabilities that have been 
requested by Kyiv and are in the 2016 NDAA.
    With the committee's permission, I would like to submit two 
items for the hearing record containing proposals by the 
Atlantic Council for steps the U.S. Government could consider 
in responding to President Putin's actions to assist our 
friends and allies in eastern Europe.
    Mr. Chairman, Senator Reed, and members of the committee, 
let me close by saying that we have all been deeply 
disappointed by Russia's actions in Syria, the Ukraine, and in 
eastern Europe, and the negative effect these actions have had 
on our bilateral relationship. I believe these actions merit 
careful considerations of the tough response that all of us 
have outlined.
    Having said that, President Putin will not be in power 
forever. There will be a Russia beyond him. The United States 
and our allies should continue to make clear to the Russian 
people that we believe that Russia has its rightful place in a 
united Europe whole and free and at peace, provided that Russia 
is willing to respect the sovereignty and the free will of its 
neighbors, demonstrate a commitment to democracy and human 
rights, and respect the rules of the road in the international 
system.
    Mr. Chairman, thank you for allowing me the opportunity to 
testify before you today, and I look forward to answering any 
questions you may have.
    [The prepared statement of General Jones follows:]

       Prepared Testimony by General James L. Jones, USMC (Ret.)
    Mr. Chairman, Ranking Member Reed, and Members of the Committee, 
thank you for convening this important hearing at this very challenging 
and consequential juncture in America's relations with Russia, and in 
world affairs.
    We have all witnessed the most recent and dangerous developments in 
Syria where Mr. Putin, under the guise of fighting ISIL, is using force 
to advance his highly cynical campaign to prop up Bashar al-Assad. This 
action is merely the latest in a pattern of behavior emanating from 
Moscow that we had hoped ended with the Cold War. Unfortunately, as I 
came to learn during my tenure as National Security Advisor, the 
dissolution of the Warsaw Pact was an outcome neither cheered nor 
accepted by the current Russian president.
    I would like to share with the committee my thoughts on three 
dimensions of the situation before us. First, I will describe my view 
of Mr. Putin's primary motivations, which go a long way toward 
explaining his actions in the Middle East, Europe, and Ukraine; second, 
I will touch on the strategy he is employing to achieve his objectives; 
and third I will conclude by sharing my own recommendations for steps 
that the United States and our allies should consider in response to 
Mr. Putin's activities.
               putin's world view and domestic situation
    In 2009, I attended a breakfast meeting between President Obama and 
President Putin. I left that breakfast convinced of three things: 
first, Mr. Putin is a product of his upbringing in the KGB; second, he 
believes deeply that Russia was humiliated by the conclusion of the 
Cold War and is wholeheartedly committed to 'righting' what he sees an 
historic injustice, the collapse of the Soviet Union. Third, he clearly 
believes that NATO is a great evil and that his interests are best 
served by weakening the transatlantic alliance and destabilizing his 
western periphery. These three views are reflected not only in Russia's 
revanchist foreign policy, but also in the country's lack of political 
and economic evolution under his tenure as President.
    As national security advisor, we worked hard with President Obama 
and the Russian President at that time, Mr. Medvedev, on advancing the 
United States 09Russia relationship to a new paradigm. I genuinely 
believed that President Medvedev aimed to integrate Russia into the 
Euro-Atlantic arc and was the kind of partner with whom we could 
achieve common goals. We made important progress including the START II 
treaty; convincing Russia to withhold its delivery of S 09300 surface 
to air missiles to Iran during a key period of time; and achieving 
their cooperation on a range of non-traditional security challenges on 
regional matters such as Afghanistan and transnational crime. 
Unfortunately, upon returning to the Kremlin, President Putin reversed 
much of the modest progress we made during the Medvedev presidency, and 
moved Russia down a very different path, away from Euro-Atlantic 
integration of his predecessor.
    President Putin has proven he remains a cynical cold warrior, 
deeply nostalgic for a Russian-centric sphere of influence. In 
addition, Russia's recent military involvement in Syria and increased 
cooperation with Iran, combined with greater political engagement 
across the Middle East, indicates Mr. Putin is upping its effort to 
increase Russian influence in that region as well.
    Mr. Putin's strategic objective is equally clear: to reassert 
Russian power and prestige on his terms. International principles and 
norms of behavior are not in his calculus. He is willing to use force 
to achieve his objectives, including overturning internationally 
recognized boundaries and disregarding state sovereignty, illustrated 
by the illegal annexation of Crimea in 2014.
    Given his ambitions and actions, Mr. Putin is far more interested 
in modernizing his military than reforming Russia's dysfunctional and 
corrupt political and economic systems. Low oil prices and western 
sanctions have negatively impacted the country's already fetid business 
environment and placed great strain on the Russian economy.
    While Mr. Putin's poll numbers ostensibly remain quite high in 
Russia, particularly after the annexation of Crimea--it is difficult to 
know if these numbers are credible given the lack of civil society, 
free media, political opposition and independent institutions in 
Russia. But for now he is consolidating power effectively.
    It remains to be seen if his popularity can survive the kind of 
significant economic downturn which Russia is experiencing. The country 
is now in full recession for the first time in six years. The World 
Bank forecasts Russia's economy will shrink by 3.8 percent in 2015.
    Russia's political system and human rights situation has also 
degraded during Mr. Putin's return to the Kremlin. The Russian state 
actively persecutes homosexuals, has clamped down on media and free 
expression, has fostered an environment of hostility to what is left of 
the political opposition and free media, and operates a robust 
propaganda machine.
          putin's international objectives and modus operandi
    Russia's aggressiveness abroad is not only a means of diverting 
attention from his domestic shortcomings; it emanates naturally from 
President Putin's world view and his desire to project power and 
influence. In my view, Putin aims to restore Russia as a major player 
in the international system; to leverage Russia's strengths and 
enemies' perceived weaknesses to his advantage; to harness a resurgent 
nationalism for his adventures; to sow division within the 
transatlantic alliance and on a larger scale, disrupt international 
order.

Military Action
    Strengthening and modernizing the Russian military has been central 
to Mr. Putin's ambition of reasserting Russian power on the world 
stage. Russia is presently halfway through a ten-year, $700 billion 
defense modernization initiative that is projected to result in the 
acquisition of 1,100 helicopters, 100 ships (including 24 submarines), 
2,300 tanks, and 2,000 artillery pieces. While President Putin has 
looked to protect the military from budget cuts due to low oil prices, 
there are signs the modernization process may be forced to move at a 
slower pace.
    Even so, United States military leaders fear these new capabilities 
are being used to pursue an anti-access/area denial strategy against 
NATO, particularly in the Baltic Sea region from Kaliningrad; in the 
Black Sea region from Russia's buildup in Crimea; and now in Syria from 
its deployment of anti-aircraft capabilities. There is growing concern 
within the alliance that Putin is using a series of capability 
deployments in these sensitive areas to raise the risk, or perceived 
risk of United States or coalition military action in these regions. We 
see this in Syria, where Russia's deployments are geared not toward 
fighting ISIL but rather toward protecting the murderous regime of 
Bashar al-Assad. I believe that the Russian President's deployment of 
combat aircraft and sophisticated air defenses  09 which are not needed 
to fight ISIS--are intended to deter the United States-led coalition 
from establishing a no-fly zone in northern Syria.
    In addition to investments in Russian military equipment, large-
scale Russian military exercises, some conducted on very short notice 
are a cause for concern. Russia has held major exercises in the Arctic, 
joined with China in naval drills near our Japanese allies, and held 
major exercises which included tens of thousands of troops on NATO's 
eastern flank. Indeed, in March 2015, Russia held an exercise intended 
to simulate the invasion of Denmark and the Baltic states.
    In some cases, exercises have been used to mask long-term Russian 
troop deployments, such as in Syria last month and in Eastern Ukraine, 
where United States European command has estimated there may be as many 
as 12,000 09Russian troops. Russia's use of so-called `volunteers' or 
little green men  09 which ostensibly offer Moscow plausible 
deniability  09 is another element of the Kremlin's so-called `hybrid 
warfare tactics.' We have been alerted by Moscow that such `volunteers' 
may find their way to Syria very soon.
    There is real concern among allies in northeast Europe that a snap 
exercise could be used as the pretext for Russian forces to suddenly 
conduct a small-scale incursion into NATO territory that would create a 
fait accompli, or risk all-out war with Moscow. This would be a direct 
challenge to Article V of the Washington treaty, and potentially end 
the principle of collective defense which is the very heart of NATO's 
founding treaty. Given the growing anti-access capabilities described 
above, that cost could be high indeed if we and our allies are 
unprepared for such an outcome.
    There have also seen the deployment of more aggressive and more 
capable Russian naval forces. As stated by the Commander of United 
States Naval Forces Europe, the Russians are constructing an ``arc of 
steel from the Arctic to the Mediterranean. Starting with their new 
Arctic bases, to Leningrad in the Baltic and Crimea in the Black Sea, 
Russia has introduced advanced air defense, cruise missile systems and 
new platforms.'' As evidenced by recent Russian naval activity, Mr. 
Putin is focusing his naval capability on addressing the perceived 
advantages of NATO navies. He is signaling to us that the maritime 
domain is contested.
    Finally, there are increasing reports that Russian military 
aircraft are violating NATO airspace with their transponders off, 
raising the risk of civilian aircraft accidents while violating the 
sovereignty of our treaty allies. NATO intercepted some 400 Russian 
aircraft flying over Europe in 2014 and numbers suggest that 2015 will 
exceed that total. And of course, just this week we saw Russia violate 
the airspace of our Turkish allies.
    Russia's advanced cyber capabilities are also a source of grave 
concern for the United States and its allies. We have seen Russia 
employ its impressive cyber capabilities against Estonia, a treaty 
ally. We must be alert to Moscow's willingness to use this tool to 
achieve its political goals.
Energy Action
    Mr. Putin's strategy does not rely on military power alone. He 
seeks to maintain European dependence on Russian gas and continues to 
use that dependence as a weapon; he deftly applies a `divide and 
conquer' strategy to undermine Europe's cohesion. We see this in 
particular through the Nord-Stream pipeline, which connects Russia 
directly to Europe while bypassing Ukraine. Also in Russia's gas 
pricing tactics which reward its friends and punishes its opponents. 
The members of this committee understand that Mr. Putin's incursion in 
the Crimea is, among other things, about exercising political power 
through the control of energy, and about brandishing the threat of 
energy scarcity to intimidate and manipulate vulnerable populations. 
The greater the gap between global supply and demand, the more 
destructive the energy weapon will become.
    While Russian troops occupy a sovereign country, including a major 
port, to stop Ukraine from receiving energy imports, Mr. Putin's rubles 
are being spent on campaigns to stop natural gas development in central 
Europe--all with a mind towards creating scarcity, dependence, and 
vulnerability among countries who are U.S. friends, allies, and trading 
partners.
    Fortunately, Europe is awakening to the threat and is investing in 
redundancies, gas storage hubs, and interconnectors that reduce 
Russia's ability to hold countries hostage.
Political Action
    An important part of Russia's foreign policy is to sow division 
within the western alliance and to undercut the cohesion of the Euro-
Atlantic arc of economic and security cooperation. Moscow actively 
courts EU countries that are economically weak or dependent on trade 
with Russia in hopes of fracturing unity. This past summer Putin 
unsuccessfully wooed the newly elected Syriza government in Greece in 
the midst of ongoing discussions with the Eurozone over its economic 
rescue package in hopes of convincing Athens to vote against EU 
sanctions on Russia.
    Russia has also built links to European party leaders on the far 
right and far left in order to foster close relationships at the 
political and financial levels, such as with the National Front in 
France. Mr. Putin has made a habit of sustaining old and corrupt 
alliances (such as with Syrian President Assad or Belarussian President 
Lukashenko). Just this week, President Assad noted the importance of 
the Russia-Iran-Iraq alliance at sustaining his regime.
    State-controlled media outlets spread untruths primarily with the 
intent to undermine western diplomacy and messaging, mask Russia's 
aggressive intentions, and plant seeds of doubt within western publics. 
Russian television parrots the government's narrative that Russia is 
under attack from Ukrainian `fascists,' a hostile NATO, and ISIL. The 
Russian government deliberately lies about Russia's activities in 
Ukraine and denies it has forces there, despite visual proof to the 
contrary. It has also obfuscated the role of Russian-backed rebels in 
downing Malaysian airlines flight 17, and has outrageously blocked a UN 
tribunal to get the facts. Let's not forget that 298 souls lost their 
lives in this unconscionable tragedy. Yet Russia thumbs its nose at the 
international community by blocking simple fact finding  09 a stunning 
example of how out of touch its behavior is with international norms 
and standards of justice. More recently, Russian has lied about the 
fact that Russian the air force is currently bombing United States-
backed opposition groups in Syria, claiming instead that they are 
striking at ISIS despite evidence to the contrary.
Actionable Recommendations for Countering Russian Aggression
    In the face of the strategic environment I have described, I 
believe the United States should lead its allies in developing a three-
pronged approach that includes economic, political, and security 
components.

Economic considerations:
    Invest in North-South Energy Infrastructure in Europe: To undermine 
Putin's use of energy as a political weapon, the United States should 
support the EU's development of energy, tele-communications, and 
transportation infrastructure along a North-South axis from the Baltic 
to the Adriatic Sea. This North-South corridor would constitute the 
most strategically viable alternative to Russia's regional abuse of 
current energy supplies and supply routes; foster greater cohesion 
among Central and East European states; undermine Russia's monopoly on 
energy pricing; and severely inhibit its ability to use energy as a 
weapon. Along with my Polish colleague Pawel Olechnowicz, CEO of the 
Grupa Lotus, I have co-chaired an Atlantic Council report exploring 
this issue in greater detail. It includes a set of recommendation 
receiving strong support in Europe and the United States. There is much 
we can and must do to support the development of this critical 
infrastructure. I would ask your permission to make the report a part 
of the hearing record.
    TTIP (Transatlantic Trade and Investment Partnership): Energy 
security is instrumental for a transatlantic growth, prosperity, and 
security. The same can be said of successfully concluding TTIP. Europe 
and the United States have the largest trading partnership in the 
world. Strengthening it serves our mutual interests and reaffirms the 
centrality of the transatlantic alliance in the 21st century. TTIP also 
affords the U.S. a unique opportunity to author the rulebook and 
roadmap for 21st century advanced economies, which would stand in stark 
contrast with Russia's reliance upon crony capitalism.
    Maintain U.S.-EU Sanctions: The sanctions regime that was 
implemented in response to Russia's illegal actions in Ukraine may not 
have altered Putin's strategic calculus in Ukraine, but they have 
raised a cost to his actions and left Russia economically isolated. The 
United States and EU should maintain Russian sanctions until full 
military and political implementation of the Minsk II agreement has 
been secured in Ukraine, and should also be prepared to increase 
sanctions if Minsk II isn't fully implemented (Moscow must be made 
aware that its support for rebels will incur increasingly costly 
penalties). Furthermore, Russia's full implementation of the Minsk II 
agreement shouldn't necessarily result in `business as usual' either; 
Crimea-related sanctions should remain in place until Russian forces 
evacuate the Crimean peninsula and return it to Ukraine.

Political Considerations:
    Maintain transatlantic solidarity: A central tenet of a United 
States strategy for countering Russia should be to strengthen 
transatlantic solidarity and cooperation. American leadership in this 
effort will be crucial and fostering a common vision for the alliance 
in the face of a new and more challenging operating environment
    A second component of our political strategy should be a 
comprehensive public diplomacy campaign spotlighting the values that 
make the transatlantic community unique and conducive to human 
development: free and open markets; respect for human rights and 
democratic governance; and respect for the rule of law--values that 
stand in stark contrast to Putin's Russia.
    A key source of Russia's influence is its predation of fragile 
governments and the exercise of corrupt practices. The United States 
must continue to support ongoing political reforms in Europe, 
particularly in countries on the NATO/EU periphery such as Moldova, 
Georgia, Ukraine, and the Balkan states that are currently seeking 
closer association with Euro-Atlantic institutions.
    Reaffirm NATO's open door policy: NATO must prevent Russia from 
shutting its long-standing `open door' membership policy. At next 
year's NATO summit in Warsaw, NATO should admit Montenegro (assuming it 
has met all political and military commitments). Doing so would counter 
Russia's growing influence in the Balkans and send a powerful signal 
that the vision of a united Europe, whole and free, remains viable. A 
similar effort should be made by Washington to unlock the tragic 
political conflict within the alliance that has prevented Macedonia 
from taking its rightful place as a NATO member.

Security considerations:
    Enhance NATO force presence in Central Europe: The United States 
should rally allies around a permanent NATO force presence in Central 
and Eastern Europe, to include American forces. This will be 
controversial because some allies fear provocation of Russia, which 
will require careful American diplomacy. Given Russia's aggressive 
exercises and troop positioning on NATO's eastern flank, I believe we 
run a greater risk of conflict by NOT increasing NATO's presence in 
Central and Eastern Europe.
    Maintain funding for the European Reassurance Initiative: I applaud 
the efforts of the U.S. Congress to fund the President's $1 billion 
initiative to enhance the presence of U.S. rotational forces, air 
policing, and infrastructure in Central, Eastern, and Southeast Europe. 
This appropriation should continue, given the ongoing Russian threat to 
our allies, but United States political leaders should also press our 
allies to continue their own contributions to NATO's Readiness Action 
Plan.
    Make Resilience a core task of NATO: A key element of Russia's 
strategy is the use of strategic surprise and hybrid threats to take 
advantage of weak states. Adding resilience as a core task would 
complement NATO's current core tasks of collective defense, cooperative 
security, and crisis management. An important component of building 
greater resilience should be enhancing NATO's cybersecurity 
capabilities and responsibilities.
    Provide security assistance to Ukraine: I support the 
Administration's recent decision to send long-range counter-battery 
radars to Ukraine and believe we should take additional measures, such 
as providing the anti-tank missiles, intelligence support, training and 
counter-electronic warfare capabilities that have been requested by 
Kiev and mandated by the 2016 NDAA.
    Empower the SACEUR to make rapid troop deployments: Russia's 
reliance on strategic surprise and hybrid warfare, illustrated by the 
seizure of Crimea, poses acute risks for our NATO allies such as the 
Baltic States. They in turn fear a Russian snap exercise that could 
potentially result in encroachment on their territorial sovereignty. To 
counter this threat, NATO must empower the SACEUR to employ his best 
military judgment and order rapid troop deployments in the interest of 
Alliance security.
    With the Committee's permission, I would like to submit two items 
for the hearing record containing proposals by the Atlantic Council for 
steps the United States government should consider in responding to 
President Putin's actions and assisting our friends and allies in 
eastern Europe.
    Mr. Chairman, Ranking Member Reed, and members of the committee, 
let me close by saying that I have been deeply disappointed by Russia's 
actions in Syria, Ukraine, and Eastern Europe, and the negative effect 
these actions have had on the United States 09Russian relationship. I 
believe these actions merit the tough response I have outlined.
    Having said that, President Putin will not be in power forever. 
There will be a Russia beyond him. The United States and its allies 
should continue to make clear to the Russian people that they believe 
Russia has its rightful place in a united Europe, whole, free, and at 
peace, provided that Russia is willing to respect the sovereignty and 
free will of its neighbors, demonstrate a commitment to democracy and 
human rights, and respect the rules of the road in the international 
system.
    Thank you for allowing me to testify before you today. I look 
forward to answering any questions you may have.

    Senator McCain. Well, I thank you.
    And I thank the witnesses.
    After the Russian general knocked on the door of our 
embassy to notify us that we had an hour notice that Russian 
airstrikes would begin in Syria, the President said he wasn't 
going to engage in a proxy war. Secretary Kerry said this was 
an opportunity. And our Secretary of Defense said that this 
was, quote, ``unprofessional.'' And, in response--and, of 
course, deconfliction is our hot--top priority. Obviously, that 
hasn't happened. And now we're--the United States is rerouting 
its flights to avoid Russian warplanes, not the opposite.
    I'm curious what kind of signal that sends. And, far more 
importantly, this cruise missile strike, I think, has 
dimensions and significance that may be, in a short time, lost 
on us, because I think it is a seminal event when a country 
launches cruise missiles from 900 miles away on a target that--
on targets that are the people that we have supported, trained, 
and equipped, and sent in to fight.
    So, I guess my question is--two. One, what is the overall 
significance of this latest Russian escalation? And what does 
it--signal does it send to anybody that we would train, equip, 
and send into combat that we're going to sit by and watch them 
slaughtered by the Russians?
    General Keane?
    General Keane. Yeah. Mr. Chairman, the introduction of the 
cruise missiles is a--is testimony to the loss of precision-
guided munitions and missile technology advantage that we've 
had for 25 years. For some time now, the Chinese missile 
development strategy, the Iranian missile development strategy, 
and what Russia is doing also with missiles and precision-
guided munitions, have literally caught up to the technological 
advantage that we've had. And certainly this is the first 
manifestation of it. We are the country that used cruise 
missiles on our adversaries, and certainly Russians have had 
this capability, and they're obviously using it. So, we have to 
understand that, that that technological advantage that we've 
had is gone. And it's in countries that we're in competition 
with; that is, Iran, China, and Russia.
    In terms of the provocation, you know, I'm absolutely 
convinced that Russia--you know, the psychological bully that 
they are with a national chip on their shoulder since the 
collapse of the Soviet Union in '91, I believe they are 
absolutely convinced they can have their way with us. And this 
campaign that they're doing in Syria was certainly calculated 
with that thought in mind. When you think about it, this is--as 
I said in my opening line, it's unprecedented for them to move 
this distance, establish an airbase in another country that, 
for their purposes, is isolated and vulnerable, from a military 
perspective. But, they established this base with confidence 
that they will be able to control the airspace that they want 
to use, that the United States will not impede any of their air 
operations and their support for ground operations. And they 
calculated that, and I--and it turned out to be the case.
    Not only have they done that, but much as we're doing in 
China, who is building airbases in archipelagos in the South 
China Sea, as opposed to flying over those bases and--because 
they're international waters, we're avoiding them. So, right 
now, air operations in Iraq is avoidance operations. We have an 
enemy, called the Islamic State of Iraq and Syria (ISIS), but 
we're now--that enemy, called ISIS in Syria, because of Russian 
control of the airspace and desire to fly wherever they want, 
when they want, we're avoiding that. And what we should have 
said right from the outset is that, ``We're going to fly our 
airplanes wherever we want, when we want, and what you should 
do''----
    Senator McCain. And what's your----
    General Keane.--``is avoid that, or else face 
confrontation,'' and put our foot down.
    Senator McCain. And what----
    General Keane. And we're doing the opposite. And I think 
they recognize that.
    Senator McCain. And what is your response when, as I 
received just last night from--on one of the television shows, 
``That means you want war with Russia, Senator McCain.'' Do you 
want war with Russia, General Keane?
    General Keane. Of course not. But, I think there are 
prudent actions that you can take to discourage an ally. If 
we--the other calculation that Russia has made, and it's been 
manifested as a result of the red line in Syria, the annexation 
of Crimea, the movement into Ukraine, and a sort of deniability 
that he gives his adversaries by the kinds of deceptive ways he 
uses military force--I mean, I believe his calculation--and 
it's a correct one--is that we get paralyzed by the fear of 
escalation and by the fear of confrontation. And he understands 
that. And he uses that to his advantage. And he's going to 
continue to do it.
    And I'm absolutely convinced--I disagree with the 
Ambassador--I don't believe the Syria operation in any way, 
shape, or form will hold him back for exerting his national 
interests in the Baltics and eastern Europe and breaking down 
the strategic buffer that he clearly wants to have. And he will 
use this--I'm convinced of it--as a platform and foundation for 
more aggression against that buffer in eastern Europe. And he--
--
    Senator McCain. Ms. Conley.
    General Keane.--will do it because he knows he can and 
because he knows he will get away with it.
    Senator McCain. Ms. Conley.
    Ms. Conley. I think President Putin has now clearly said 
that there will be no international regime change, based on his 
understanding of the Libya operation in 2011, where the U.N. 
Security Council basically, in his view, gave a green light to 
changing regime. He is a status quo power, and the power he is 
the most concerned about, as Ambassador Sestanovich said, is 
his own power and maintaining his own power. But, that also 
projects to other powers. And so, I think right now this is his 
strongest message.
    He is also sending a clear message to President Obama that 
he is not a regional power, he is a global power, and he has 
extensive reach. And I think, again, the cruise missiles 
demonstrate.
    We're also seeing where Russia's military modernization and 
its significant increases in its defense spending has paid off. 
It can move quickly, and it does have sophisticated weaponry 
that it can use. And I think we're seeing that. And for 
countries that are quite interested in purchasing Russian 
equipment, this is also a benefit of seeing the level of 
sophistication that it has and will be willing to sell.
    Mr. Putin acknowledges strength, and he exploits weakness. 
And our Syrian policy has been a demonstration of lack of 
resolve and weakness, of which he has been able to exploit. 
Now, there--in some ways, in talking to some of my Polish and 
central European colleagues, you know, they're advocating, 
``Please, send two Russian divisions to Syria. Get the heat off 
of my border and bog Syria--bog the Russians down in Syria.'' 
But, this--he can move very quickly, and he can turn the 
temperature up when he needs, and temperature down. And this is 
where we are constantly reacting to his agenda. We're getting 
out of his way. We have not set a strategic framework to say, 
``These are what our rules''----
    And I would just finally say, last year President Putin, in 
his address to the Valdai Discussion Club, his speech was 
entitled ``The World Order: New Rules or a Game Without 
Rules?'' His rules. This is Putin's rules. And he's making us 
work with his game. And I think we have to return to our rules, 
which were established at the end of the second World War, 
international legal norms. And that's what we have to get back 
to.
    Senator McCain. Ambassador?
    Ambassador Sestanovich. Thank you, Senator.
    You know, I think General Keane is right about something 
very important, and that is, this is a kind of situation that 
we didn't face in the Cold War. Because, in the Cold War, there 
was a kind of constraint on Russian--Soviet activity, because 
they--as you say, General--feared escalation. Since the Cold 
War, American use of military power has actually been almost 
entirely free of a fear of Russian interference. And what Putin 
has done is change that. He's said, ``You cannot act 
independently anymore without worrying about my actions.'' And 
he's been the first mover in this case. I don't think the 
difference is so much a technological one as a political one. 
He has backfooted us by taking the first action and saying, 
``You deconflict with me.'' Obviously, our preference would be 
for him to think he had to deconflict with us. So, that----
    Senator McCain. Classic example of this is the air 
operations.
    Ambassador Sestanovich. That is a very big change. We now 
are being told by the Russians, ``We're going to be free to act 
independently without being checked by you.'' That's--that is 
not only something we haven't experienced since the end of the 
Cold War, it really is a change, even from the Cold War itself.
    But, I think we should not forget what some of our 
advantages are here. I think our discussion has been very 
bilateral, as though it's us against the Russians, forgetting--
--
    Senator McCain. Could I--I'm way----
    Ambassador Sestanovich. Yeah.
    Chairman McCain.--over my time.
    Ambassador Sestanovich. Yeah.
    Senator McCain. If you could----
    Ambassador Sestanovich. I just want to--I--let me finish 
the thought.
    Senator McCain. Okay, sure.
    Ambassador Sestanovich. We have, in Europe and in the 
Middle East, an array of states that want to work with us, and 
who, working with us, can actually check the Russians and limit 
this kind of independent action. One of the big things about 
our passive Syria policy over the past several years is that 
we've not done anything in the way of coalition management to 
create a block of states that would keep the Russians out.
    Senator McCain. Thank you.
    General Jones, could you hold your answer? Because I'm way 
over time, and----
    Senator Reed. No, go ahead.
    Senator McCain. All right, please go ahead, General Jones.
    General Jones. Very quickly.
    I think we've been off balance in Syria since Assad 
violated the red lines and used chemical and biological weapons 
on his own people. The penalty for that should have been quick 
and decisive. Many people advocated--I was one of them--that a 
no-fly zone and a safety zone for refugees be created in Syria. 
And it went along with international cooperation.
    I think where we are now is that Putin is basically 
offering a trade, ``Assad stays in power and then we'll take 
care of ISIL.'' And I think that's really what it boils down 
to. I think we should consider really elevating NATO in this, 
an emergency meeting of the North Atlantic Council, to shore up 
and demonstrate the alliance's resolve, not only for eastern 
Europe, but also in the current Middle Eastern problem.
    Thank you.
    Senator McCain. Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    General Jones, in your testimony, you touched very, I 
think, insightfully on the whole issue of energy policy. We 
have a very contentious and confrontational Russia right now at 
$50 a barrel in oil. If it swings back to $100 a barrel, we 
could be in real dire straits. So, that raises a huge issue, 
which I don't think that we're going to settle here at this 
panel, but we should be thinking strategically, in terms of, 
How do we, in the world market, maintain a lower price of oil? 
Because that's what, basically, will take away a lot of his 
ability to be confrontational. Is that fair?
    General Jones. Senator Reed, I really believe in this and 
the fact that the United States still does not have a strategic 
energy policy, I--there isn't one that I can find anywhere 
that's written, either classified or unclassified. This is a--
an asset in our quiver that is incredible, in terms of future 
potential. And the sooner, I think, that we understand that 
energy security is a vital part of our toolkit, in terms of 
deciding what we're going to do and not going to do in the rest 
of the world, I don't think we fully grasp how the energy 
situation has changed the power balance in the world.
    Mr. Putin relied on that. He--it's now--he's paid an 
economic price for it. I think there are ways in which, with 
United States leadership, particularly with Europe, that we can 
continue to help our friends and allies wean themselves off of 
their dependence on Russian energy, which is--will continue to 
create his economic isolation.
    Senator Reed. Let me ask you another question, General 
Jones. As the National Security Advisor, I assume you wrestled 
with this issue, which is: Many of the proposals, in terms of 
countering the Assad regime, would require overt attacks 
against Assad's forces. Do we have the legal authority to do 
that? Most of what we've done, legally, has been under the 
AUMF, which has been in effect for more than a decade. But, 
do--are there legal problems that the President would confront 
if he, in fact, decided he was going to take more dramatic 
action?
    General Jones. In direct confrontation----
    Senator Reed. With Syria.
    General Jones. I'm sure there are.
    Senator Reed. Yeah.
    General Jones. I'm sure there are.
    Senator Reed. So, the----
    General Jones. But, those--but, that's--that doesn't mean 
we shouldn't confront them and resolve them.
    Senator Reed. I absolutely----
    General Jones. Yeah.
    Senator Reed.--agree.
    General Jones. Right.
    Senator Reed. I think that, in many cases, the debates--
assumes that these are policy issues alone, that they can be 
done by decision----
    General Jones. Right.
    Senator Reed.--immediately, where, in fact, there are--I 
think we have to be very careful. I know Senator McCain has 
been extraordinarily eloquent about the issues involving legal 
authorities and they can use--when we can use them, how do they 
constrain us, how do they enable us. But, let me thank you.
    I'll--finally, and I will ask for a quick response, and 
I'll ask the Ambassador and then I'll--anyone else wants to 
chime in. The decisive ability to change the facts on the 
ground in Syria is somehow ground forces, in my view. I don't 
think airpower alone, by any side, is going to decisively sort 
of settle the issue. When it comes to the Russian engagement, 
they have several options, but the three primary options would 
be to rely on the Syrian forces that are there with their air 
support; second, to use Russian advisors, command-and-control 
apparatus, but not troops, with their airpower; and a third 
would be, as--there's been some suggestions of Russian 
formations, et cetera.
    Mr. Ambassador, just your comments on those options. Would 
they be used? Is there something we're missing?
    Ambassador Sestanovich. Senator, to work through those in 
exactly the order you suggest, hoping not to get to number 
three, but for Russian officials already to be mentioning 
volunteers suggests to me we should worry that that's already 
entrain, and that their analysis is, they can't succeed without 
it. If that's what it takes to succeed, I think there could be 
some deployments, and maybe not too far down the road.
    Senator Reed. Any other comments by the panelists? Ms. 
Conley? General Keane?
    General Keane. Yeah. I think they're going to wait a little 
bit. They know full well that IRGC is with Syrian army units. 
They know that the IRGC is leading, in some cases, the local 
militia, but, in all cases, advising them. And they also know 
that there's about 7,000 Hezbollah and about 3,000 Iraqi Shi'a 
militia that are being returned from Iraq. They were there in 
greater numbers at one time or another. Russian doesn't--Russia 
doesn't have a clue whether this ground force is going to be 
effective or not. And I think they're going to wait to see if 
they have to inject something. And then if they do, I think 
they would go through an escalation of advisors and other 
things before they would actually put direct combats.
    Listen, Putin is no fool, here. He's got Afghanistan in his 
rearview mirror, 10 years--a 10-year commitment that really 
hurt his country and lost confidence of his people in the 
national decision authority, et cetera. So, I think they will 
be guarded about their introduction of significant combat 
forces.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Senator McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I'd--first of all, I really appreciate the very blunt 
answers we're getting here. And we've been getting them in this 
committee for quite a while now. We had--not just General 
Dunford, but others--Clapper--coming in and making statements 
that I think are really pretty courageous and talking about the 
seriousness that we're facing right now.
    When the Ambassador mentioned--and I was prepared to ask 
this question before, because I'm reading from the Council of 
Foreign Relations now that you had disagreed with General 
Dunford in this respect. And I noticed three nervous people 
while you were saying that. I'd like to have each one respond 
as to whether or not you agree with the statement of General 
Dunford, in terms of the existential seriousness of this.
    Senator McCain. Ladies first.
    Ms. Conley. Thank you. Well, I--what I understood is, 
General Dunford's statement was that Russia is the only power 
that can wipe the United States off the planet with its nuclear 
arsenal.
    Senator Inhofe. Let me interrupt you to----
    Ms. Conley. Yeah.
    Senator Inhofe.--say what he said to this committee. It 
was--and this is a quote--he said, ``Russia presents the 
greatest threat to our national security.''
    Ms. Conley. And I think, based on their ability and as well 
as the focus that we have seen over the last several years on 
strengthening and modernizing their nuclear strategic deterrent 
and their nuclear submarine forces. And I think, also, because 
we have seen, over the last several years, beginning in 2008 
with the Russian invasion of Georgia, that the Kremlin is fully 
able and willing to use military means to accomplish its 
political objectives. It is not--you know, it does not believe 
it will be prevented. Now, that's within its own neighborhood.
    So, I think that is why the Chairman of the Joint Chiefs of 
Staff is very concerned about Russian activities and aggression 
and their willingness to use their----
    Senator Inhofe. And you----
    Ms. Conley.--force.
    Senator Inhofe.--you agree with him.
    Ms. Conley. I do agree with him. And I think yesterday's 
display of the cruise missiles reinforces exactly what General 
Dunford was saying.
    Senator Inhofe. Do you agree, General Jones?
    General Jones. I do agree with that.
    Senator Inhofe. Let me tell you a concern that I had. This 
was in yesterday's Politico. It was talking about--Captain Jeff 
Davis told reporters the United States has a good awareness 
about the skies over--has begun routing--rerouting its 
airstrikes so they'll pass clear of the Russians. He said that 
we have taken some actions to ensure the safe separation of 
aircraft.
    I look at that, that they are dictating what we're doing 
with our aircraft in making those determinations while we're 
sitting back and doing what is the most effective way to 
respond to them. Do you--am I wrong?
    General Keane. Well, it certainly appears that way. And, 
listen, we have full visibility of the airspace and also these 
airfields that are in Syria. We have very sophisticated radars 
for this purpose. Actually, a little bit better than the 
Russians. And we can actually track an airplane taking off from 
any airfield in Syria, and follow that airplane. So, we have 
positive control, in the sense of where are the Russian 
airplanes and what are--where are our airplanes? So, the idea 
that, to avoid some kind of air conflict, that we would stop or 
curtail our operations against ISIS, which we've said we were 
going to defeat, makes no sense to me.
    Senator Inhofe. Have you ever seen this in your long career 
in the military before? Of us responding----
    General Keane. No, I have not. I can't recall anything like 
it.
    Senator Inhofe. Yeah.
    Just briefly on the Ukraine situation, do you think that 
this lull that we're experiencing right now might be due to the 
fact that they are--as we've pointed out, the military is 
strong, but they're in a weakened position, financially, 
economically, that maybe they can't--they're not able to do it? 
And the reason I'm asking that--I was over there when they had 
their parliamentary elections, and they--for the first time in 
96 years, there's not one Communist in their Parliament. And I 
think that's very significant, and I would look for him to stop 
the lull and get back in. Do you think that the lull is going 
to last a while? Or do you think----
    General Keane. You're talking about in Russian military 
modernization?
    Senator Inhofe. Uh-huh.
    General Keane. Yeah.
    Senator Inhofe. No. No, I'm talking about what's happening 
right now with the aggressive nature of Putin in the Ukraine. 
It's slowed down a little bit now. Do you think that it's 
because they don't----
    General Keane. Yes. I--my sense of it is, that is just a 
pause.
    Senator Inhofe. Yeah.
    General Keane. You know, politically, I believe he achieved 
what he wanted, and that is this government that was anti-
Russian, to a sense, has turned its head away from the thought 
that it would be economically integrated into Europe or 
militarily integrated. He sort of--he has accomplished that. 
But, the fact that he's building those two bases there, 
Senator, tells you that he has not given up on----
    Senator Inhofe. Yeah
    General Keane.--more activity in eastern Ukraine.
    Senator Inhofe. Yeah. Yeah.
    Lastly, the--you made the comment, Ms. Conley, that--and, 
as you know, we--as all of you know, we just passed our defense 
authorization bill. There's been a veto threat on parts of 
this. And this very much concerns us. You had said something 
to--during your statement. I don't think it was in your 
public--your published statement. But, you said you are very 
supportive of what we're trying to do with the National Defense 
Authorization Act (NDAA). Would you be specific as to what is 
really in there that you approve of and that you are 
enthusiastic about?
    Ms. Conley. Thank you, Senator.
    And, just to your previous question, I think Mr. Putin is 
dialing it down in Ukraine because he would like the European 
Union to lift sanctions, and they have to make that decision in 
the next couple of months. So, I think he's trying to reduce 
that----
    Senator Inhofe. NDAA.
    Ms. Conley. On the NDAA, specifically, there is an 
amendment that speaks about looking at the Arctic and seeing 
the strategic picture of the Arctic, assessing and making those 
assessments of what the capability gaps are. I think it is 
time--we have studied this issue, and there are pile and piles 
of studies, but we now have to look at this region more 
strategically. And within the NDAA, there is a specific 
discussion about how to look at the Arctic. I think it's also--
in the NDAA, there's also discussion about Poland and east--and 
looking at increasing our force posture. These are exactly the 
strong signals that we need to send, and I thank the committee 
for their thoughtfulness on trying to get at this problem.
    Senator Inhofe. Yeah, well, it's--help us get it through.
    Thank you.
    Senator McCain. Senator King.
    Senator King. Thank you, to the panel. This has been very 
thought-provoking and very helpful.
    I do--I share your concerns about the Arctic and what's 
going on there strategically. I'm going to defer to my 
colleague from Alaska, who I--will--am quite confident will 
discuss that issue in some detail.
    Senator Sullivan. You're correct.
    [Laughter.]
    Senator King. I've--yeah, I'm a mindreader. I don't----
    Let's talk about Syria for a minute. It seems to me, if you 
boil it down to its most essential element, Putin wants Assad 
in more than we want him out. He's willing to make a commitment 
that we haven't been willing to make over the past 2 or 3 
years. Our policy has been a--benign neglect is too strong a 
term, but it's been a kind of--go slow, hope that momentum 
would eventually push him out. And apparently there was some 
progress being made this summer, and Putin decided he was going 
to reverse that. And we're faced with a decision of, How 
important is it for us to get rid of Assad? And is it worth 
risking a war?
    I have this historical dilemma of whether this is the 
Sudetenland of 1938 or Sarajevo in 1914. I'm not sure it's 
worth starting World War III over Assad. The Archduke is long 
forgotten, and, at some point, Assad will be, as well. But, 
that's the strategic dilemma, is, What is our real interest?
    Now, I do think--and, General Keane, you mentioned--I think 
it was very significant--that Russia does have a legitimate 
serious fear about ISIL and about Islamic jihadism. Perhaps 
that's an opportunity for us to make common cause with them, 
just as we did on the chemical weapons issue. And countries 
ultimately only act in their own interest. And this is a place 
where we do have a coincidence of interest, and perhaps that's 
an area that we can focus upon, separate from the issue of 
Assad.
    Finally, Ms. Conley, I was fascinated by your discussion of 
Iron Curtain 2.0. It seems to me what we're talking about here 
today is Containment 2.0. We're talking about a strategy of, 
What do we do with Russia? Is it expansionist or is it--is this 
historic Russian paranoia, going back to Napoleon and Hitler, 
and feelings of threat from the West? Are they trying to build 
a defensive perimeter, or are they--do they want to ultimately 
control France and England and the United States? How do you--
what is it they want?
    General Jones. I'll take a stab at that. The--I think, deep 
in the--as I mentioned in my remarks, deep in Mr. Putin's 
thought process is, he wants to correct what he sees as a--an 
injustice with regard to the--how the Cold War ended. He wants 
his borders and----
    Senator King. But, does that mean he wants to take control 
of----
    General Jones. No.
    Senator King.--Poland again, for example?
    General Jones. No. But, I think that it does mean that he 
will push his borders away from Russia. He wants a--he wants 
peripheral states, as much as possible. And he's consumed--I 
honestly believe he's consumed by this idea that we are his 
natural enemies. I mean, he--he is the type--he--I define his 
leadership as a negative type of leadership, in the sense that 
people like him need an enemy to make themselves look good. And 
it's like the----
    Senator King. Well, clearly that's what he's doing 
politically.
    General Jones. Exactly. And----
    Senator King. Take the people's mind off the lousy 
Russian----
    General Jones. Exactly.
    Senator King.--economy.
    General Jones. So--but, he's been successful, because we--
he's moving faster than we can act, than we've acted. NATO, 
General Breedlove, has done some very innovative things, within 
certain constraints that he faces, in terms of the organization 
and how NATO makes decisions. But, I think Mr. Putin will pay 
attention when he sees decisive action. Now, what form that's 
going to take, we're going to have to wait and see. But, he's--
I--he's going to continue to do this--to exhibit this kind of 
behavior until he's confronted with a----
    Senator King. I've always thought of Russian foreign policy 
as like a thief in a hotel that tries every door until he finds 
one that's open. And, as long as their doors are closed, as 
long as NATO exists and is vigorous and represents a line, 
that's the policy that I think you're recommending.
    General Jones. Exactly. But, he has not seen that yet, so 
until we demonstrate that--and American leadership is 
absolutely essential in creating the conditions that will show 
that all doors are securely locked and that he can't----
    Senator King. But, I think it's awfully important, as you 
pointed out, the first--it was interesting, your first point 
was economic.
    General Jones. Exactly.
    Senator King. That was what ultimately brought about the 
decline of the Soviet Union, and that also is what can 
undermine this new expansion.
    General Jones. Exactly.
    Ms. Conley. Senator King, I think every great power must 
have a sphere of influence, and Mr. Putin is doing it by force.
    Regarding NATO, he would seek to undermine--if he can put 
a--you know, just a--run a train through NATO credibility, 
that's the best thing he could do. He wants NATO to collapse. 
How do you get to a new bargain is if--you know, the Warsaw 
Pact disintegrated, NATO survived. The only way you get to a 
new European security architecture, and the only way you get 
this grand bargain, where, ``This is yours and I'll let you 
keep that,'' is, you have to undermine the credibility of the 
NATO alliance. So, if he can divide the alliance, if he can 
put--if he can provoke a government for taking actions that 
other NATO allies won't support because--sort of the Georgia 
scenario--you provoke until there's an action, and then you 
blame the victim for doing that. That's the Ukraine scenario, 
as well. This divides the alliance. He believes that there's a 
civilizational challenge here, that the great Russian 
civilization has to fight against the decadence of the West.
    And so, there is a slight ideological component to this, so 
it's not about invading Poland. It's so eroding America and 
NATO's credibility that it just sort of dissolves on its own. 
And therefore, Russia can exert its own influence and its own 
power, and it's demonstrating that it, in itself, is a superior 
model of development.
    General Keane. You know, piling onto that, I totally agree. 
This is not the occupation of his strategic buffer on his 
border. The burden of that, you know, is something that he 
doesn't want. This is about fragmenting the NATO alliance. I 
clearly think it's a strategic issue for them. I think they're 
going to probe to see how they can best do that, politically 
and militarily. They already know that Portugal, Spain, and 
Canadians are doubtful participants. I think they're going to--
they will use the Baltics, likely as the best vehicle because 
of the Russian minority population there. You have--you've got 
to believe there's people like Jim and myself that are sitting 
around Putin and throwing the question on the table, ``Will 
Angela Merkel really respond to an incursion in the Baltics 
with the little green men and put her infantry in there to 
thrust them out?'' I mean, that's--I don't know the answer to 
that. And just the fact that that question is there gives them 
some leverage. So, I think that's what this is really about.
    The second thing, in reference to, How could we cooperate 
with Russia?--I thought we had a lost opportunity, post-9/11, 
because of Russia's experience with radical Islam. Putin was 
the first guy that called the President of the United States, 
you know, based on what happened here. And this is someplace 
where we could truly work to cooperate. They have huge 
experience with radical Islam. They obviously have great 
concerns about it. We've been involved in it now for 15 years 
ourselves. We actually were involved in it years before that, 
but we never responded.
    So, this is an area where I believe we need a global 
alliance to deal with it, and I think this is an area where the 
United States and Russia could exercise some leadership 
together to put together that alliance.
    Senator King. And I believe Russia is prepared to do that. 
At least they've indicated over the summer that they are.
    Thank you very much.
    Thank you, Mr. Chairman.
    Senator McCain. Ambassador, do you want to chime in here? 
You----
    Ambassador Sestanovich. Let me just add one thing to this 
picture of Putin's view of Europe, because I do think he 
imagines that he can, with a combination of assets, be the 
dominant power in Europe, because, above all, Europe is 
divided, unable to act in a way that just--he has expressed his 
contempt for. But, I don't think we should underestimate the 
lessons that he's learned over the past couple of years. He has 
been surprised by the way in which the United States and Europe 
have responded to the Ukraine crisis. He expected this to go 
much more easily for him. And it has been a chastening 
experience.
    Senator McCain. Wow. I don't think the Ukrainians believe 
that.
    Senator Wicker.
    Senator Wicker. General Keane, to what extent did this 
surprise action by Russia in Syria represent an intelligence 
failure?
    General Keane. Well, I don't know, myself, what we do know 
and what the President has been told. Just seeing the reaction, 
certainly, of the National Command Authority, it appears, by 
every indication, that, you know, we didn't have much 
forewarning of this, you know, other than when he started to 
deceptively bring his airplanes in. You know, he flew his 
fighters in underneath his large cargo aircraft so they 
wouldn't be picked up on radar, and then he was--it was obvious 
that he was constructing something at the base. I think the 
first signs that I believe we knew something were physical 
signs that something was changing at the airbase. I don't know 
that for a fact, because I'm not privileged to have those 
classified briefings anymore.
    Senator Wicker. Not--General Jones, it's not comforting 
about our intelligence capability there, is it?
    General Jones. I think we were surprised by that.
    Senator Wicker. Thank you very much.
    Let me say that, as outrageous as Mr. Putin's actions have 
been in Syria, there's one thing you can say for him. He's 
standing by his only friend in the region. And so, let me ask 
you this, General Keane. To the extent that Mr. Putin and the 
people around him are looking at the Baltic states, what 
signals are they looking for about the decisions this 
administration is about to make with regard to Afghanistan? And 
what will that say about our resolve to stand by people who've 
taken our side in very important areas of the world?
    General Keane. Yeah. That's a great question. I think this 
is one of Putin's major points that he's making strategically, 
is that he's--he will stand by his friends and his allies, and 
he's willing to put muscle to that to accomplish that. And I 
think--I suspect Putin was somewhat in disbelief to watch 
America abandon Mubarak in Egypt, to watch America abandon 
Iraq, to watch America retreat from Yemen, and to watch America 
retreat from Libya. And he has a different playbook entirely 
from that. And here comes Afghanistan, as you just mentioned. I 
think we're going to make this decision: a force level that 
will not be that effective in helping to maintain security and 
stability in Afghanistan and will further put the country at 
risk. That will be read by Putin as another sign of America 
arbitrarily making decisions about the conditions of a war zone 
and, because we no longer want to be in it, moving away from it 
despite those conditions. Certainly, our allies have all seen 
this track record of retreat and withdrawal, and obviously it 
has to give them concerns.
    You know as well as I do that anybody that talks to people 
in the Middle East region--there is not a country in the Middle 
East who we have a relationship with who has--who doesn't have 
doubts about America, in terms of its reliability and its 
trustworthiness to back them up in times of peril. That is a 
fact, and it's indisputable. I haven't talked to a Baltic 
leader, but I'm certain they have some issues with it. I also 
know, though, that they truly appreciate the forward 
positioning of troops and airpower in their country, because 
that is a positive sign.
    Senator Wicker. General Jones, those are pretty strong 
words by General Keane. Would you care to follow up on those?
    General Jones. I don't think there's any doubt that, in the 
areas that we deal with, particularly in the Middle East, that 
our reliability factor has suffered a serious blow over the 
last few years. Wasn't intended that way. I--you know, I 
thought that the announcement of a pivot towards Asia was a 
mistake to announce it that way, because when you pivot toward 
something, you're pivoting away from something, and the Arabs 
took it quite differently than what, perhaps, we intended.
    Senator Wicker. You know, I don't remember being a part of 
that decision as a Member of Congress for the last 21 years.
    Let me see if I can sneak a question in for Ms. Conley. It 
seems to me, as an advocate--as a strong advocate of Radio Free 
Europe and Radio Liberty, that the Russians have been eating 
our lunch lately when it comes to the information war. How 
important is this? And do you agree with my assessment?
    Ms. Conley. Senator, I fully agree with your assessment. 
Unfortunately, the tools that were successful during the Cold 
War--Radio Free Europe, Voice of America--are no longer the 
tools that are going to be able to penetrate an incredibly and 
sophisticated strategic communications campaign. I was in 
Bulgaria, 3 weeks ago, where Russian oligarchs and firms have 
basically purchased every media outlet in Bulgaria. There is no 
ability to penetrate that. And they're not listening to Voice 
of America. When you go into eastern Estonia, to Narva, they 
are only listening to Russian media, and they're given a 
completely different universe that they're living in. We have 
seen the efficiency of Russian trolls and tweeting incorrect 
information that's happening in the United States that can, you 
know, cause concern. We are not able, at this moment, to 
counter this campaign, but we need to employ a much more 
effective strategy.
    I don't know if it's government propaganda, but I think 
it's a very sophisticated plan that works with social media 
outlets, those that are still open in Russia, although they're 
very few, and they're blocked repeatedly. But, we must work 
much harder at focusing on European public opinion, which is 
quite negative, as well as in Russia.
    But, this is the great challenge of our time, and we really 
don't have an effective answer.
    Senator Wicker. Thank you.
    Senator McCain. Senator Cotton.
    Senator Cotton. Thank you.
    I want to return to a point that General Keane was 
discussing earlier. The Pentagon confirmed, yesterday, that 
American pilots are now being told to alter their routes to get 
out of the way of Russian aircraft. In your long career, you 
said you can't recall a time in which that's happened. Does 
that apply to the entire military? Can you recall a time in 
which any American troop has ever been told to change his 
action to avoid an enemy?
    General Keane. I don't have a direct reference for it. 
There probably is something along those lines, but I don't--in 
modern warfare, since the United States has had global 
responsibility, I don't have a reference for it.
    Senator Cotton. General Jones, you have a long and 
distinguished career, as well. Can you recall a time in which--
told American troops to avoid an enemy?
    General Jones. No.
    Senator Cotton. I certainly haven't served as long as you 
two have, but I can't recall receiving or giving such an order, 
either. America doesn't avoid our enemies.
    General Keane, you also said that Vladimir Putin is no 
dummy. He recalls the experience of Afghanistan when they lost 
thousands of lives and it made the Soviet leadership very 
unpopular with the Russian people. The key part of--one key 
part of Afghanistan was United States active intervention in 
providing billions of dollars worth of weapons and support to 
various Afghan fighting forces. Is that correct?
    General Keane. Yes, most definitely.
    Senator Cotton. Is there any reason to think that Vladimir 
Putin is going to repeat the experience in Syria that the 
Soviet Union had in Afghanistan if there's not that kind of 
peer competitor there to help check through active 
intervention?
    General Keane. The--in reference to what--what actions are 
you speaking to that he would take?
    Senator Cotton. I am actually speaking of U.S. actions. We 
all know what Ronald Reagan did in Afghanistan in the Cold War. 
Is Vladimir Putin apt to face the same kind of quagmire that 
Soviets faced in Afghanistan in the--given the complete lack of 
action of the United States in Syria?
    General Keane. Yeah, right. The--clearly, what we have done 
in Syria, one, on the side to support the opposition forces, in 
my judgment, from the beginning, has been totally and 
completely inadequate. And we have had very competent people on 
President Obama's national security team that were advocating a 
much more robust strategy, as far back as 2012. Others 
advocating it before that. And the administration has never 
moved. What they did move is covertly dealing with the Central 
Intelligence Agency (CIA)-trained force to provide them with 
some weapons capability. But, that is not sufficient, and we--
despite all of that--think of this--despite all of that, 
because of the weaknesses of the Syrian regime--that army's 
down to about 120,000 from 220-plus, desertions, broken 
equipment, using one or two aircraft a day--one or two aircraft 
a month, morale low, many of the conscripts that they should be 
bringing into the service are the young men that are fleeing 
into Europe as part of the refugees--so, there's real problems 
there. Despite our faulty programs, the opposition forces, to 
include the al-Qaeda, have been able to put this regime still 
in jeopardy for the second time. And, unfortunately, what's 
going to take place now, I think, is, Putin is going to be 
successful in supporting the Syrian--to push back on many of 
these gains. And I don't think we're going to do anything more 
than what we are doing to help the opposition forces. Those 
decisions have been made. I don't believe the President's going 
to take any action, you know, to protect them, which he could, 
by establishing free zones for them, and certainly some other 
actions that he could take to protect them, as I mentioned in 
my statement.
    So, I think we are where we are, in terms of U.S. support. 
And, as it pertains to the rest of Syria, we don't have a 
strategy to defeat ISIS in Syria. It doesn't exist.
    Senator Cotton. I, regrettably, agree about our policy in 
Syria.
    Ambassador Sestanovich, in your statement, point five, you 
say that, ``We should all worry about where Russia's reckless 
behavior will lead next. Most of us have been wrong in 
anticipating Russian actions in the past couple of years.'' I 
would agree with that, as well. So, I would have a question for 
the panel about the future, given what General Keane just said.
    My son has reached the age at which we play a game commonly 
known as ``Peek-a-boo.'' In my household, I refer to it as 
``Surprised-by-Putin.'' It's amusing when a 5-month-old is 
repeatedly surprised by the same action over and over again in 
close succession. It's very dangerous when a President is. So, 
what's the next surprise that Vladimir Putin is going to spring 
on the United States in the West?
    Ambassador Sestanovich. Tough question, Senator.
    I think we may discover, as some of the other panelists 
have said, that there's another round of Russian policy in 
Ukraine. I think right now they're unsure of how to handle this 
crisis, but they have not written off their investment there. I 
would certainly pay attention to that.
    If you ask about crises in the Middle East emanating from 
Syria, you know, I'd look to the spillover to other countries 
that have been very worried about what is going to happen and 
have not gotten a lot of help from us. The fact that Turkish 
airspace was violated over the weekend is a warning by the 
Russians, but it's not the only way in which this could spill 
over. Syria, unfortunately, has got a lot of neighbors in the 
Middle East, and Russian policy is going to prolong this civil 
war.
    I'd just put one little extra piece on the board for you to 
look at if you have General Keane's maps in front of you. One 
country that is not on the map here is Azerbaijan. Azerbaijan 
is the country off whose coast the Russians fired those cruise 
missiles. It's been able to sustain its independence over a 
long period of time, but it's in play. It's not the only--it's 
not the biggest prize here. It's not the--it's not likely to be 
sucked into the war. But, the Russians move on a lot of 
different fronts, and their aim is, as many of the panelists 
have said, to restore influence over other countries of the 
former Soviet Union. Watch that space.
    Senator McCain. Senator Ayotte.
    Senator Ayotte. Thank you, Chairman.
    I want to thank all of you for being here today.
    General Keane, you said that aggression unanswered, you 
fear, leads to more aggression.
    And, General Jones, I believe you talked about how we need 
to increase our NATO presence in eastern Europe, among many of 
the things that you discussed, and that there's a greater risk 
by not increasing U.S.-NATO presence, versus those who want to 
say, ``Let's not incite Russia.'' If you look at what we--what 
has happened without us, I guess, doing anything to incite 
Russia, it's been pretty astounding.
    So, with the tremendous military experience between both of 
you--General Keane, General Jones--I mean, it's incredible what 
you've done for the country--I wanted to ask you--if we stay 
the course, if we stay where we are, which is, as I see it, 
really no response, that we are letting them kind of take their 
course as to what they're doing both in Ukraine, where, yes, we 
have economic sanctions, but we certainly haven't provided any 
military support for the Ukrainians--if we don't increase NATO 
presence, if we don't take some actions and we let Russia 
pretty much own the airspace in these areas, what do you 
think--what is the thing that worries you most and keeps you up 
at night, that if we stay the course of where we are now, which 
seems to be letting the Russians take whatever action they want 
to take at any time?
    General Jones. I think it's possibly the beginning of the 
end of the North Atlantic Treaty Organization. I think it's 
that serious. We just can't sit back and let this happen.
    In 2004 or 2005, we started withdrawing a lot of our forces 
from Europe. Some of us had some serious discussions with the 
then-Secretary of Defense about the tradeoff of doing that. Our 
belief, when I was in Europe, was that, yes, you could reduce 
some of the infrastructure and some of the forces, but it 
should be balanced by rotational forces elsewhere in eastern 
Europe, particularly in Bulgaria and Romania, where we--where 
those countries helped build bases that would accommodate 
rotational forces, and then, because of the demands on our 
troop strengths in Iraq and Afghanistan, they were never really 
used. Happily, now we are starting to see those bases being 
used. And I would strongly suggest that--you know, the old 
adage ``a virtual presence is actual absence'' is absolutely 
correct. And we need to bolster our presence, and NATO needs to 
show itself as an alliance of 28 countries that really adheres 
to what it says and what it's for. And it should become more 
proactive as a way of dissuading other engagements. Sitting 
back and being reactive and then debating it for 6 months, 
hoping for 100-percent consensus among 28 countries, is not a 
formula for success with Vladimir Putin.
    Senator Ayotte. General Keane?
    General Keane. Yes. Clearly, the United States has been the 
dominant country in the Middle East that's outside the region--
our own self-interests, obviously--economic, stability and 
security of the region. And we've been willing to take action 
to ensure that stability and security.
    Enter Russia. Russia, with this alliance with Iran, cannot 
be understated, in terms of its strategic significance. It's 
going to have profound impact on the region. Every country in 
the region will be impacted by it and will be making 
adjustments to the new geopolitical landscape that Iran and 
Russia are creating for us. These are allies of ours that are 
being impacted by it. Why? Because of their concern about their 
strategic enemy: Iran. And, as a result of that, they have to 
leverage their relationship with Russia. So, our influence--
listen, we're still a major player in the Middle East. I'm not 
suggesting we're not. But, I am suggesting we have diminished, 
in the last number of years. And with this alliance, this will 
be an accelerant to actually reduce our influence more 
considerably. So, that's number one.
    Number--you're going to make a comment?
    Senator Ayotte. Well, I actually also wanted you to speak--
in the context of this alliance between Iran and Russia, how 
does this deal play into it? Does it play into it at all?
    General Keane. Well, obviously Russia supported the deal as 
much as the United States did. They saw it in their interest to 
do so. Certainly, Iran's behavior for the last 35 years should 
have been on the table as a condition for the deal, but it was 
removed.
    The other thing--I totally agree with General Jones--I 
think, strategically, it--the objective in Europe is the NATO 
alliance. And I think we're likely to see its unraveling, to be 
frank about it. Have you seen these surveys that they published 
about European countries, their willingness to defend 
themselves, and a majority of the people are unwilling to do 
that? What does that tell you? Much less collectively come to 
the aid of another country that is burdened by Russian 
aggression. The--strategically, he will break that alliance, 
and he's not going to have to take much military action to do 
it, in my judgment. And that is going to be a tragedy.
    This requires U.S. leadership. And I think Jim laid out 
some careful points that we could exercise strategically, but 
we have to lead, and we have to have the resolve to do that.
    General Jones. Could I just piggyback on that?
    I just want to emphasize the fact that, although we're 
talking about NATO as a military alliance, there is a military 
component to what we can do to restore NATO, but the economic 
strategy is also very important, and the political strategy. 
So, I think it's three things that have to come together to 
have a--an effective strategy to deal with the--Mr. Putin's 
Russia as it is today.
    Senator Ayotte. Thank you.
    Senator McCain. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    And thanks, to all the witnesses.
    General Keane, I'd like to ask you this, first, but, you 
know, throw it open to everybody. So, we lead, and we put in 
no-fly zones, and we tell them, ``End the barrel bombs,'' and 
that, ``If you do, we'll crater the runways.'' What do you 
think Putin's response will be? And it's--you know, there's 
obviously no guarantees, but, you know, How do you think that 
will--where do you think he goes then?
    General Keane. I don't know. He has a range of options. 
Obviously, he can escalate right along with us if he chooses 
to. But, I think it's that. It--when you focus on that, in 
terms of ``What is his escalation response?''--is the thing 
that paralyzed us from taking action. I mean, I think--I do 
believe there's prudent things, you know, that can be done.
    Senator Donnelly. Do those seem--they seem like prudent--
you know, we've been talking about a no-fly zone for a while 
here, ending the barrel bombs, which the Chairman has talked 
about repeatedly. Those seem like prudent steps to take, to me.
    General Keane. Yeah, they're not easy, though, and let's--
--
    Senator Donnelly. Right.
    General Keane. Let me tell you why. Obviously, with Putin's 
airpower there, and enforcing a no-fly/no-bomb zone is more 
challenging now. In the south, it--and to enforce a no-fly 
zone, you actually have to have someone on the ground to also 
protect that zone from infiltration from the regime or, 
actually, Jabhat al-Nusra. So, in the south, we can put 
together a--I prefer to call it a free zone, where the 
moderates would be protected there, and we would be able to 
bring refugees in as a sanctuary. And the reason for that is, 
we have an effective ground force there in the Free Syrian 
Army. In the north, where we truly want to do it, and where the 
Turks have interest in it as well, it's much more challenging. 
And this is the reason. We don't have the density of moderate 
forces there that we have in the south. And Jabhat al-Nusra 
would likely infiltrate it or overtly attack it.
    Senator Donnelly. Well, maybe a better term on my part 
would have been a safe zone, where they don't get barrel-bombed 
from the sky, where things like that----
    General Keane. Well, that's what I call a free zone. But, 
we--the south, I think we can achieve it. In the north, it's 
challenging, and I'm not confident that we would have the same 
results. And it certainly risks escalation.
    Senator Donnelly. Do you--I'm sorry.
    Ambassador Sestanovich. I'll give you a--I'll give you a 
firmer answer, actually, than General Keane. I think if you 
get--if you have--if you convey that the United States and its 
allies in the region are going to take serious military action, 
you will get a serious Russian diplomatic response. That is, 
for the first time, Putin will start saying, ``You know, we 
need to talk about the future of the Syrian regime'' in a way 
that has not been true until now. I think the Russians have not 
felt that they have to take seriously what we say about the 
future of Syria, because we're not playing.
    If you want to play in this game, you have to be prepared 
to put some assets on the table. And I don't think we can 
expect to affect the political equation until the Russians 
think that there's a--that the military risks to them are 
greater than they calculate.
    Senator Donnelly. And do you think if there is that 
pushback and then you combine it with time and you combine it 
with $40-a-barrel oil, is there a window for Putin to be doing 
these things where in--2 years from now, if we push back during 
that time, and hold firm, that, at some point, he just says, 
``Enough,'' you know, ``We'll try to cooperate and get this 
done together?'' Because at some point he looks at--do you 
think he sees financial difficulties down the road for him, as 
well?
    General?
    General Keane. Oh, yes, absolutely. I mean, his financial 
reserves are depleting rather dramatically. If the economy 
stays the way it is, certainly that's going to have some--you 
know, some impact on him. But, I still believe that Putin's 
view is much larger than just a couple of years, in terms of 
what he portends, strategically, for himself.
    But, let me just add to your other point. If we establish 
free zones, you know, for moderate opposition forces, but also 
sanctuaries for refugees, that gets world-opinion support 
rather dramatically. If Putin is going to attack that, then 
world opinion is definitely against him. You take this issue 
right off the table, in terms of why he's in Syria. And if 
you're doing that, and contributing to the migration that's 
taken place by your aggressive military actions, then world 
opinion will have some rather, I think, significant impact on 
him.
    General Jones. If I could, it's--we have a model in 1991 in 
Iraq, where we not only partitioned the north and the south, 
but we cratered the runways, we were able to get Saddam's air 
force completely grounded. But, what we also did was, by 
creating those zones, particularly in the north, we avoided a 
significant refugee problem. And I think that a mistake was 
made, back on the redline days, when we didn't do that as a 
response to his using chemical weapons. I believe that Europe 
would not have been suffering the refugee problem that they 
have now, and I think--I completely agree with General Keane 
that, if you tie it to the safety of--and security of innocent 
civilians, and you take--make it a big enough chunk in the 
country--I think that that is a powerful argument to do that. 
And I agree that it's harder in the north and that that's 
something we should look at in the south.
    Senator Donnelly. Thank you, Mr. Chairman.
    Senator McCain. Both--you agree, Ms. Conley and Ambassador, 
with that assessment?
    Ambassador Sestanovich. I certainly do. And I think you'd 
see some impact in Putin's behavior sooner than 2 years from 
now. Putin doesn't fold his tent lightly, and he's not going to 
admit quickly that this entire operation has been a fiasco for 
him. But, if there's pushback, he will not necessarily just 
continue plunging forward.
    Senator Donnelly. Wasn't thinking that he'd wait 2 years, 
but, in his mind, at all points, you'd have to think is, 
``What's my currency balance at the moment?'' as well.
    Senator McCain. Ms. Conley?
    Ms. Conley. Well, in many ways, though, a lot of this 
adventurism is because the domestic situation is continuing to 
deteriorate. Russian inflation is very high. He's having to 
tell the oligarchs that they can't quite get as much funding. 
And they're in desperate straits. The sanctions and the low 
energy prices have had impact.
    But, remember, he's created the national narrative that 
he's--Russia is encircled by enemies. And he controls the media 
space, and he's created a warlike environment. So, I think 
there's probably a little more longevity here, even if the 
economic situation continues to fundamentally deteriorate. I 
think his vulnerability, as we saw in Ukraine, is casualties. 
So, if you do make the military cost higher, that he can't 
cover up--and they've done a masterful job of suppressing--even 
the mothers of Russian soldiers are now foreign agents because 
they were talking about the disappearance of their sons in 
Ukraine. That is a vulnerability. But, his control over his 
media space is--so, this can go on for a long time. But, we can 
make the calculation--the risk higher for him. And I think, if 
he does run into strength, he responds to that strength and 
adjusts.
    I recall--and, Senator McCain, you know this much better. 
This was during the Russia-Georgian conflict when we had to fly 
back--Georgian soldiers back to Georgia. And, you know, a C 
095A coming in, and it's, you know, ``Don't do this.'' And we 
said, ``Get out of our way.'' And they responded to that. But, 
we have to be very strong in what we're going to do. And I know 
you remember those days very well.
    Senator McCain. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, Ms. Conley and gentlemen, for being here today, 
and your service to our country.
    For General Jones and General Keane, last week I had voiced 
my concerns regarding the new intelligence-sharing agreement 
between Iraq, Russia, Iran, and Assad's Syria. And, like all 
events in Iraq, it seems, according to Deputy Secretary of 
Defense Robert Work, this agreement caught the administration 
by surprise. You know, hello. However, I'm not surprised, 
considering the Iranian influence in Iraq seems to have really 
eclipsed our own as the Iraqi government continues on its 
trajectory towards a very sectarian, noninclusive government 
and our administration has a lack of decisiveness in that 
region when it comes to fighting ISIS.
    So, considering the efforts of all of our men and women in 
uniform and the billions of American taxpayer dollars that have 
been put into Iraq, supporting the Iraqi people and the Iraqi 
government, I am troubled that the Iraqi government has entered 
into this information-sharing agreement. And they did this 
without consultation to the United States. So, I do think this 
puts our intelligence professionals at risk, and our country at 
a greater risk.
    And so, if you could maybe talk a little bit about what 
those risks might be to the American public and why we should 
or should not have--or why they should or should have not 
entered into this information-sharing agreement.
    General Keane. Well, Congresswoman--I mean, Senator, thank 
you, and thank you for your military service----
    Senator Ernst. Thank you.
    General Keane.--and your leadership.
    You know, the--when you think about Iraq, we not only lack 
sufficient resources in trying to assist the indigenous forces 
there, I also think, politically, we're not doing nearly what 
we should have been doing, because you cannot have success in 
Iraq without Sunni participation----
    Senator Ernst. Right.
    General Keane.--in a significant way. And it has cost 
Maliki's ineptness and--the nefarious character that he is, 
that excluded the Sunnis politically from participation. And I 
know everybody knows this answer, but what are we doing to 
assist that? You know, one of the things we--one of the things 
we've been advocating is, we need a three-star military 
headquarters there, with the Ambassador, that interacts 
routinely with Prime Minister Abadi for political reasons, as 
well as military reasons, similar to way Ryan Crocker and 
General Dave Petraeus did with Maliki before. And it's not 
something to be taken lightly, because it is the political 
decision to include the Sunnis that becomes the lynchpin for 
success of the indigenous force. You're never going to be able 
to succeed until their participation is there. You can actually 
clear Ramadi. Let's assume we clear Ramadi next week with 
predominant Shi'a militia forces and some degree of Iraqi army. 
What is going to keep ISIS out of Ramadi is Sunnis, Sunnis who 
are armed and trained and have the resolve to stay there, just 
as it will be in Mosul.
    Senator Ernst. So, General----
    General Keane. That participation is totally dependent on a 
political inclusion of the Sunnis. So, the fact that Abadi is 
making this deal--and I think it portends a statement he's not 
making publicly, that the United States is not supporting him 
in a way that he needs, and the Iranians are, the Russians will 
be, and I think he's making a shift, right before our eyes, 
without making any public pronouncements about his loss of 
confidence in the United States.
    Senator Ernst. So, General Keane, basically the lack of 
diplomatic participation by our administration, as well as 
militarily, has led to this information-sharing agreement, 
would you agree?
    General Keane. I think it has. I mean, Prime Minister Abadi 
came to this country for his first visit with the President of 
the United States, and he left, essentially, with nothing more 
than what he already had. And that was his first visit. He had 
a shopping list of what he wanted. Four weeks later, he's in 
Moscow, and he's cutting an arms deal with Russia. The deal has 
already been done. Now, he doesn't want to buy Russian stuff, 
he wants American equipment. He can't even get the American 
equipment on time in the numbers he wants for the deals he 
already has with the United States. That's how frustrated they 
are with just supporting him on the decisions we've already 
made, much less additional support.
    So, if you're facing an enemy that's breathing down on your 
country and occupies one-third of your country, and you're 
challenged to retake that territory and evict them, and you're 
comforted by the fact that the United States is coming to your 
aid, but that aid is so shallow--you can understand what he's 
doing. He wants to protect the sovereignty of his country. And 
if he--if Iran's going to be the helper or if Russian's going 
to be the helper, he's probably going to take it.
    Senator Ernst. He's going to take it.
    And I'm sorry, I know I'm running out of time, but, General 
Jones, if you would comment, just very briefly. Do you believe 
that now with this intelligence agreement sharing arrangement 
that Iran and Russia will be able to exploit intelligence that 
we have had and gathered in Iraq?
    General Jones. Oh, I think that deal is probably not in our 
best interest.
    Senator Ernst. Okay, thank you. That's excellent. I 
appreciate it.
    Thank you, Mr. Chair.
    Senator McCain. Senator Sessions.
    Senator Sessions. Thank you.
    This is really a valuable panel. We've got great witnesses, 
and have shared with us information about a very grave foreign 
policy time in our country. It's unbelievable that we're 
drifting without a kind of a strategy to seriously deal with 
Russia or the whole Middle East. Somehow I think a Nixon-
Kissinger, we'd be in better shape today.
    Ambassador Sestanovich, George Kennan has been mentioned. I 
see you're the George Kennan scholar. Do you think that it is 
appropriate for the United States at this time to see--to take 
action to establish a more long-term strategy for the Middle 
East that would extend over decades, not just reacting to one 
event after another, one that our allies around the world could 
join with us on?
    Ambassador Sestanovich. I have the greatest respect for 
George Kennan, but, actually, at the time, he was trying to 
develop a strategy that would be good even for a couple of 
years. And if we had a strategy that was good for a couple of 
years, we'd be way ahead of where we are now. So, let's not 
think decades. Sometimes long-termism can be a trap. Let's try 
to think about how to get our act together in a way that does 
us some good in the----
    Senator Sessions. What about----
    Ambassador Sestanovich.--short and middle term.
    But, let me----
    Senator Sessions. But an----
    Ambassador Sestanovich. I--but, if I could answer your----
    Senator Sessions.--agreement to agree on----
    Ambassador Sestanovich. Yeah. Look, the main thing that the 
Russians have always thought about us in relation to them is 
that we have allies and that they didn't, and that they are all 
by themselves. This, of course, feeds a lot of insecurity on 
their part, but it is a genuine advantage for us. That 
advantage is at risk of being lost. I mean, we can squander 
this huge asset. And so, I would suggest that the place to 
start in thinking about a strategy that will be effective over 
the next couple of years or the next couple of decades is how 
to leverage this advantage that we have built up over half a 
century. And it's not--for reasons that the generals have 
mentioned, not easy to do at this point, because there are a 
lot of doubts about our strategic good sense and our staying 
power. But, these are still assets that are latent and can be 
recovered if we are at all serious about it.
    Senator Sessions. Well, General Jones, you were our Supreme 
Allied Commander in Europe. You were there for a long time. I 
visited you and value your judgment. But, are you positive we 
could face the end of NATO? A European official of great 
experience said the refugee crisis could--is the greatest 
threat to the EU since World War II. He was panicked. A person 
you could trust, a man of judgment.
    Well, so we're in Estonia and they wanted more American 
troops. We had 160----40, I believe, or--but, I don't know--a 
company, I believe. And so, I asked you all, Well, how much 
were they spending on their defense budget? Little Estonia, 
right up there next to the border. And, of course, they were 
sincerely saying they were going to get to 2 percent. Well, 
we're at 3.6. Germany's hardly over 1 percent of their defense. 
And you made that--General Jones, you mentioned the poll. That 
was stunning to me. I mean, I wondered--I asked the Estonians, 
``Why doesn't--why don't Germany or France put a company in 
here? It would be less expensive for them than for us.'' It's 
their backyard. But, apparently, that--is it a----
    So, I'm very frustrated about that. I think they're not 
carrying their share of the load. I think they need to do it. 
But, their lack of will is so palpable, it seems to me that, if 
we don't lead and don't step up, they're not going--they'll 
just try to negotiate their way and not take any real serious 
action.
    I've gone a bit in circles. Do you have any thoughts about 
the problem of Europe's will and how we can help fix that? And 
is it hopeful?
    General Jones. At the NATO summit in 2002, the 19 countries 
that made up NATO at that time agreed unanimously that 2 
percent of their gross domestic product would be provided for 
national defense. That soon became a floor. And very few of 
them actually did that, despite the pledges.
    Ongoing in NATO right now is a reaffirmation of the fact 
that we need that--everybody needs to chip in that 2 percent. 
And I--and some countries are actually doing better. But, the--
to Ms. Conley's admonition that the next Warsaw summit, next 
year, is critical, in many respects, not only in what NATO 
stands for, what it does, how it does it, but how it's funded, 
and the commitments that NATO members make now, with 28, should 
be universally agreed to and should absolutely be supported.
    But, I do believe that our engagement in this 21st century 
is--got to be different than the 20th century engagement. We 
cannot just have military responses alone anymore. If you don't 
tie in economic development, governance, and rule of law in a 
more comprehensive, whole-of--you know, whole-of-nations 
involvement, and you don't show people that there's a better 
future for them at the end of whatever conflict they're going 
through, you're going to lose them, and you're going to create 
refugees all over the world. And if you like what's happening 
in the Middle East right now, we're going to love what's going 
to happen in Africa in another 10 years, when Nigeria collapses 
or another big country goes under.
    So, this is a very difficult, dangerous time, where 
weakness is not something that we should show, because people 
draw--people like Mr. Putin will draw the long--wrong 
conclusions.
    Senator Sessions. Thank you.
    Thank you, Senator McCain. And I appreciate the comments--
--
    Senator McCain. Senator----
    Senator Sessions.--for a zone for people--refugees. I think 
that's got to be done.
    Senator McCain. Senator from the Arctic.
    [Laughter.]
    Senator Sullivan. Thank you, Mr. Chairman.
    And I want to thank the panel, this really incredible 
experience here, but also great insights.
    Ms. Conley, I want to thank you, particular, not only for 
your testimony, your outstanding work on the Arctic. As my 
friend from Maine said, I am going to focus on the Arctic here.
    In terms of the--you mentioned the NDAA, and I appreciate 
you mentioning that, because, you know, what we are really 
reacting to, as a Congress, to get serious--that's a 
requirement for no plan, actually, for the Arctic--was our 
current Arctic strategy, which you may have seen. This is DOD 
product, 13 pages, half of them are pictures. Climate change is 
mentioned six times; Russia once, in a footnote. It's not a 
serious strategy. So, what we're trying to do is get serious 
and have the Department of Defense get serious on that. So, 
thank you for mentioning it.
    Also, in your testimony, you know, I think it's--appreciate 
all the--you talked about the massive Russian military buildup, 
which also includes--you didn't mention it in your testimony--
four new brigade combat teams (BCT), and, as you mentioned, a 
new brigade headquarters for the military--Russia--Arctic 
military--40 icebreakers, and more to come; some of those are 
nuclear powered. We have two. One is broken. So----
    But, in terms of the three military exercises you 
mentioned, they didn't get a lot of press in the United States. 
Do you view those as provocative, in terms of what the Russians 
were doing, Ms. Conley?
    Ms. Conley. I view the last one, the March 2015, because it 
was a snap exercise at full combat readiness. We need to get 
the Russians back to the rules that the OSCE--of transparency, 
45-day notification over a certain level--because this is where 
misunderstandings and accidents happen. So, that, to me, was 
provocative and unprovoked, although----
    Senator Sullivan. And we were pretty unaware of that.
    Ms. Conley. We certainly were unaware of that.
    Senator Sullivan. Let me ask you--I'd like the panel to 
take a look at this map. It kind of goes through what you were 
talking about in your testimony. The red is the Russians and 
recent buildups. If you look in the right-hand corner, though, 
of that map, there's two blue dots. Those are two U.S. brigade 
combat teams. They're the only Arctic-trained American warriors 
that we have in the Active Duty forces. One of them is the 425. 
It's a brigade combat team in the Army. It's the only airborne 
BCT in the entire Asia-Pacific or the Arctic. The Department of 
Defense wants to, essentially, shut that down.
    So, the Russians are building up dramatically. We're not 
even--you know, there are some people saying, ``Hey, we've got 
to stand up. We can't be provocative.'' We're not even being 
provocative. We're just folding, in terms of Arctic forces.
    In light of what the Russians are doing and a theme of this 
hearing about signaling--we've signaled weakness, Putin 
exploits weakness, his appetite grows after each meal--what do 
you think Vladimir Putin would think of the United States 
removing its only airborne BCT Arctic capability and really 
cutting our Arctic forces in half?
    Ms. Conley. I think, Senator, that they view them very 
similar to, as General Jones said, that they viewed our 
reductions in Europe. We are leaving. We are leaving the 
playing field. I agree with you completely. We do not have much 
of a U.S. security architecture in the Arctic, other than our 
missile defense at Fort Greely----
    Senator Sullivan. Right. Do you think that he'll see this 
as more weakness and possibly look to exploit it in other ways?
    Ms. Conley. Well, I mean, we have told the Russians that 
they are our partners in the Arctic, and that would be true in 
the case of the Arctic Council. But, on the military component, 
we have not fully addressed and understood the dramatic shifts 
over the last 12 to 24 months that have occurred----
    Senator Sullivan. Yeah.
    Ms. Conley.--in militarization----
    Senator Sullivan. But, you think there's a--we need to 
relook at that, given what's happening.
    Ms. Conley. Oh, absolutely. And I said--it's not just for 
the Arctic's sake, although important changes are happening. We 
have to look at this at a broader theater. And that's what the 
first military exercise signaled----
    Senator Sullivan. Yeah.
    Ms. Conley.--that they're integrating theaters. So, what 
happens in the Baltic Sea, the North Sea, the Barents Sea, and 
the Arctic--it's a continuation of operations. So, we have to 
look at it holistically, not only the land component, as you 
rightly note, but also I'm particularly concerned, and what our 
allies--our Norwegian and British allies are very concerned--is 
the maritime component. Senator King was--the North Atlantic is 
becoming a much more active----
    Senator Sullivan. Yeah.
    Ms. Conley.--theater in maritime, as well as air.
    Senator Sullivan. Let me ask--for General Jones and General 
Keane--you know, I've had the opportunity to train a lot in 
cold weather at Bridgeport and up in Alaska. Can infantry 
troops, say, based at Camp Pendleton or based at Fort Benning, 
go to the Arctic, operate in the mountains in 30-below-zero, in 
extreme cold, extreme winter climate? Can they do that easily, 
or do they--do you need troops to be able to acclimatize to 
that?
    General Jones. You need special training, and you need--
but, to the bigger strategic point: Since 1945, the United 
States has recognized that if you're not present where you need 
to be present, and you're absent, you create a vacuum. And 
vacuums are usually filled by people that don't have the--don't 
share your same interests. And, you know, I used the term 
``virtual presence is actual absence,'' but actual absence 
means you're creating vacuums. And the United States, if it 
desires to be a globally significant power by the year 2050, 
needs to think about strategically what we're going to do to 
avoid increasing the number of vacuums that we're creating 
around the world.
    Senator Sullivan. Thank you.
    General Keane?
    General Keane. Yeah, Senator, thanks for your military 
service.
    I spent 4 years in Alaska as a company commander, 
paratrooper, jumping all over the place, and, you know, on 
different glaciers, et cetera. It was quite an experience. Yes, 
I mean, it--the acclimatization, the special equipment, 
everything that you need to operate in minus-30, minus-40-
degree temperatures routinely, the toughness of the soldiers 
themselves to operate in an environment like that, that's why 
we have forces there, for that very reason. Parachute forces 
have a strategic capability.
    Senator Sullivan. Yeah.
    General Keane. And that's why they're a value to us, to 
this day. Because you can seize an airfield with them very 
quickly and then bring in a lot of other things to help them 
out.
    But, what this--what is happening here--and I hope the 
other Senators understand--is, the budget control authority and 
sequestration is driving the force structure of the Army down 
to World War II--pre-World War II numbers. So, the force 
structure peaked in fighting in Iraq and Afghanistan at 570-, 
and we couldn't fight those wars at this numbers 
simultaneously. We actually had to do it sequentially. And 
that's lost on a lot of people. We're at 490-, going to 450-, 
and the budget control authority and sequestration will take 
the Army to 420-. I was with the Chief of Staff and his four-
stars just the other day, dealing with this very subject. And 
the question was asked, Why are we doing this? And he has no 
choice but to take brigades out of his force structure because 
of what the budget control authority is doing to him. Now, he 
does have the choice which brigades. And there is an argument 
and a tradeoff that he's trying to make. This was done in 
conjunction with the Pacific theater commander and where he 
also wanted his forces, not just the Army. So, that is an 
issue.
    But, let me just say that we have a Democratic President 
and a Republican House of Representatives and a Republican 
Senate. And both of these entities are underwriting 
sequestration and the decapping of military capabilities and 
putting this country at a greater security risk than it needs 
to. And we've got to stop it. I mean, we've got to stop this, 
and stop this freefall of military capability.
    Senator Sullivan. Thank you, Mr.--Mr. Chairman, may I ask--
indulge one final question? This is an important topic to me.
    Strategically, do you think it's a mistake to be taking our 
only airborne BCT out of the Arctic, given what we--this panel 
has been discussing for the last 3 hours, in terms of a massive 
increase with regard to what Putin is doing and how we are 
getting rid of the only Arctic warriors we have? I'll just ask 
all the members. You can just say yes or no if you think it's a 
strategic mistake.
    Ms. Conley. I think we have to retain the current assets 
that we have in theater and look at how we can best augment to 
be able to rapidly respond and deploy, if necessary.
    Ambassador Sestanovich. General Keane is absolutely right 
about the budget.
    Senator Sullivan. General Jones? General Keane?
    General Jones. Sorry. I agree with that.
    General Keane. Yes.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chair.
    Senator Reed [presiding]. Thank you.
    Senator Hirono, on behalf of the Chairman, let me recognize 
you.
    Senator Hirono. Thank you very much.
    And I thank all of the panel members.
    General Keane, thank you for once again pointing out the 
importance of taking responsible action to eliminate sequester 
on both the defense and nondefense side. This committee, of all 
committees, I think, fully understands the negative impact of 
sequestration on our military.
    General Keane, you had mentioned, in response to Senator 
Reed's question about whether or not--some of the suggested 
actions that you put into your testimony raises the issue of 
whether or not we ought to be having a debate on a new 
Authorized Use of Military Force. And I think you acknowledged 
that some of the suggestions probably would warrant that.
    Do the other panel members also agree? And, if so, should 
we not be beginning the debate on a new AUMF with regard to 
Syria?
    Anyone? Do you think we don't need a new AUMF?
    General Jones. Yes.
    Senator Hirono. We should begin the debate now? We--okay. 
Because we haven't done that. And that may be one of the 
reasons that we are having such a difficult time, in terms of 
our strategy in Syria.
    In the Financial Times op-ed last Sunday, Dr. Brzezinski 
stated that it is time for--and I'm quoting him--``strategic 
boldness,'' end quote, calling on the United States to 
persuade--to persuade--so far, persuasion hasn't worked very 
well--persuade Moscow to act with us in stabilizing Syria and 
encouraging engagement by China.
    And I'd like to ask the panel members, you know, What are 
your thoughts on a cooperative role between the United States 
and Russia, realizing that Russia--Putin is no fool, as one of 
you said, that, I think, he is as concerned--he must have some 
concerns about potential for mission creep for them in Syria, 
and them getting bogged down. So, you know, what are the 
conditions that would foster a discussion about a cooperative--
cooperation between the United States and Russia, and the 
potential role of China in seeking stability in the Middle 
East?
    I ask any of the panel members to----
    Ambassador Sestanovich. I did not know what Zbig Brzezinski 
meant in that piece about bringing in China, so you'll have to 
ask him. But, I think the answer to your question, more 
broadly, is an easy one. The United States is not going to be 
able to have any meaningful cooperative--or discussion with 
Russia about cooperation unless it has its own thought-out 
strategy and is willing to bring some assets to the discussion, 
and act on its own if it can't cooperate. The administration 
has been very interested in cooperating, but it has pursued 
this discussion as though you could get the Russians to 
cooperate with you as a substitute for American action. And I 
think that has been a strategic mistake. The only way to really 
get a serious discussion with the Russians is to begin by 
thinking through what matters to us and what we are prepared to 
do, and then telling them. And then you can have a 
conversation. But, to just think of cooperation as a substitute 
for any independent action is a loser.
    Senator Hirono. Do the other panelists agree with that 
assessment?
    Ms. Conley. I would just say, I think that moment of trying 
to think cooperatively expired a long time ago. And, to agree 
with Ambassador Sestanovich, at this point, it's--we have no 
strategy at what we're clear about and willing to enforce. So, 
the strategic cooperation is whether we go along with Mr. Putin 
or whether we don't.
    General Jones. I would agree that you have to--you--we have 
to take some action that clearly shows that--that establishes a 
motivation for President Putin to want to sit down and talk 
about it. But, I think that--I think there's been too much talk 
and not enough action on our side.
    General Keane. Yeah, I totally agree. You know, Mr. 
Brzezinski, in that article, also talked about retaliation 
against the regime, as you recall in the article, as a result 
of their attacking, you know, our surrogate forces. And 
certainly that's an innovative thought. I don't know what--the 
merits of that, in bringing China into it. I do know that 
contributing--that Putin understanding our resolve and our 
commitment, judged by our actions and not by our rhetoric, will 
make a difference, in terms of pushing him to more thoughtful 
diplomatic action. It has the opportunity to do that. It also 
has the risk that it will not result in that. And it could 
result in military escalation. But, if that is the only lever 
that we're concerned about, is military escalation, it leaves 
us with this--the emptiness of the status quo. And that's where 
we are.
    Senator Hirono. And when you say ``action,'' you're talking 
about military action. That's what all of you are----
    General Keane. Well, I think we should approach him with 
everything that we have, in terms of putting pressure on him, 
but I do think we're out of time, given the military aggression 
that he is using, and he's been using for a number of years 
now, that we have to push back on that.
    Senator Hirono. And----
    Ambassador Sestanovich. I would just add one--to the 
question about whether it's only military action we're talking 
about. I think an effective strategy is going to have to be one 
that brings together other countries in the region. And that's 
a political process. Those other countries are going to want to 
know what we are prepared to do. But, to begin with, to--the 
first kind of cooperation that has to be established for us to 
have any credibility in conversation with the Russians is with 
our own friends.
    Senator Hirono. Thank you.
    Senator Reed. On behalf of the Chairman, Senator Tillis, 
please.
    Senator Tillis. Thank you, Senator Reed.
    Ambassador Sestanovich, I had a discussion with a diplomat 
earlier this week who seemed to share the view that the Russian 
incursion is doomed to fail. But, I don't really understand 
that. They try to use, as a rationale behind that, as to some 
$200 billion in reserves that they have to spend. What they're 
doing right now, relatively speaking, seems to be low cost. We 
don't seem to be discussing other partners that are already 
active in Syria and in the way of Iran and an Iranian nuclear 
deal that promises to free up assets and to allow that economy 
to create currency that could become, in my opinion--I want to 
validate this--a very material part of what Russia ultimately 
does in Syria. What are your thoughts on that?
    Ambassador Sestanovich. Well, I wouldn't say the main cost 
that President Putin faces is an economic one or--and when 
people say that he is about--doomed to fail, I assume what they 
really mean is that the civil war will actually become more 
intense and that the Assad regime will be short of the kind of 
intervention that Putin is surely hoping he doesn't have to 
launch--would be further weakened.
    Senator Tillis. With--I think, in terms of high 
confidence--in the chart up there--in terms of high-confidence 
strikes being almost four-to-one for opposition targets, versus 
ISIS targets, wouldn't that seem to suggest that they get that 
and they're going to do everything they can to stamp out the 
opposition to make it less likely that a credible civil war 
could break out?
    Ambassador Sestanovich. Yeah, I think that it's possible 
that they will have some near-term advantages--I mean, 
successes.
    Senator Tillis. And, General Jones, do you have something 
to say on that?
    General Jones. I--it's a little hard to predict, but I 
think, in the short term, you're going to see some tactical 
successes, but there'll be adjustments on the battlefield. I'm 
unconvinced that the victory through airpower alone is going to 
achieve success in either Syria or Iraq.
    General Keane. The other dimension here is, you cannot 
underestimate the resolve of the Syrian people, in terms of 
what has happened to them these last 4 years, and their 
determination. When you think about it, they went up against a 
military machine that has all modern weapons, and they stood up 
against it with very little weaponry themselves. I mean, what 
has kept this in their fight is their absolute determination 
and will to change their country so that their families and 
communities can have a better life. And they're willing to die 
for it. And that resolve is still there. So, that is not going 
away. They will be able to push back. But, the civil war is not 
going away.
    Senator Tillis. And, to both General Keane and General 
Jones, I had another discussion with a diplomat who said that 
the White House's passive posture was not really what they 
wanted, that they're acting on the recommendations of the folks 
in the Pentagon. Does that seem credible to you, given where 
you are? Do you believe that the strategy that we have, which--
erasing red lines and taking a passive position in a number of 
areas around the globe where we should be probably showing a 
little bit more assertion--does that seem logical that that 
would be the recommendations out of the Pentagon to the 
President?
    General Keane. Well, first of all--Jim and I are very 
familiar with this--the Pentagon does not make policy. National 
Command Authority makes policy. They certainly contribute to 
it. So, that's number one.
    Senator Tillis. But----
    General Keane. And I will say this----
    Senator Tillis. But, General Keane, could you imagine that 
they would be making their--the recommendations--I understand 
where the policy occurs, but they would be--recommendations 
that would lead the administration to this--the current policy, 
such as it is?
    General Keane. What happened here is--I think is very 
different than the process that we're--that many of us are used 
to experience when a President has made a decision that it's in 
his national interest to use military force to accomplish 
political objectives. He sort of--that is sort of stated to the 
Department of Defense, in terms of what his goals are, and then 
they would put together a campaign that would have various 
options and risk associated with it.
    What happened on dealing with this issue, the--not only was 
the goal stated in terms of ``defeat ISIS,'' but then the 
Pentagon was told many things in terms of what the parameters 
for that operation would be. And that is very different. In 
other words, ``I don't want any civilians killed whatsoever.'' 
And many people pushed back on that and said, ``That's 
impossible, Mr. President.'' But, the rules of engagement are 
so restrictive that we cannot conduct effective air operations 
to the degree that we know we can and keep people safe. ``I 
don't want any boots on the ground.'' ``But, can we put 
advisors down to help the units to--we need to train units 
and''--``No.'' So, those kind of restrictions are something I 
think most of us have not seen in our past, and how you make a 
policy and then provide the military instrument with a campaign 
plan and options associated with it. It's very different than 
our--what our experience is.
    Senator Tillis. Senator Reed, if I may ask just one other--
--
    Senator Reed. Please.
    Senator Tillis.--question.
    And, you know, I think it's startling to hear someone who 
was formerly in command of NATO to say that it's at risk of 
dismantling. I think that that's a message that should be 
loud--heard loud and clear.
    But, General Jones, you said something else that I'm 
personally very interested in, and it has to do with a highly 
effective nonlethal economic weapon that we're just keeping in 
the holster, and that has to do with aggressive energy policy, 
whether it's preventing the transportation cost of oil to go 
down through the Keystone Pipeline, whether it's preventing 
extraction of deposits that we have that can be economically 
extracted, whether it's preventing the long-term price of 
energy futures to be influenced by our ability and our resolve 
to extract through other methods, like hydraulic fracturing. 
Have we gotten in right on any measure, in terms of using 
energy policy to confront Russia's aggression?
    General Jones. Senator, I do not believe that the United 
States has a strategic energy policy that anyone could read. 
And it's a little bit because of the way the Department of 
Energy was formed. Years and years ago, the Department of 
Energy was really the Department of Nuclear Energy. And in many 
ways, it still is.
    I'm of the opinion that we have a great Secretary of Energy 
and a great Deputy. And I believe it would be wise for the 
President to designate the Secretary of Energy as the focal 
point for all energy, from coal to wind and everything in 
between, and that energy is now--energy security--international 
security--it's an international issue, and you--and because the 
United States has been able to, through its technology, and 
mostly its private sector, develop an astounding capability and 
capacity for energy for the future, in addition to our partners 
in Canada and also Mexico, that has changed the perception of 
what the American priorities are in the Middle East, for 
example. You know, the Middle East believes that energy is--
energy for a security deal over the last 40 years is no longer 
viable, because we have our own energy. And, in fact, when you 
hear people talking about energy independence, I wince at that, 
because it does say, ``We've got ours. You're on your own.'' 
But, our energy good fortune can be used, and should be used, 
in the global playing field for developing countries and also 
as a response to what Mr. Putin is doing, and particularly in 
central and Eastern Europe.
    And this plan that we're going to enter into the record 
today is a plan that will wean 14 nations off of Russian--from 
dependence on Russian energy. That's a staggering--if this 
works, this is a staggering response, an elegant response also, 
and an economic response, to Mr. Putin's actions.
    Senator Tillis. I look forward to seeing that.
    Thank you, Mr. Chair.
    Senator Reed. Thank you, Senator Tillis.
    In behalf of Chairman McCain, let me thank you all for 
extraordinary insightful testimony and for your commitment and 
dedication to the country over so many years.
    Thank you.
    The hearing is adjourned.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]




</pre></body></html>
